<html>
<title> - CHALLENGING THE STATUS QUO AT TSA: PERSPECTIVES ON THE FUTURE OF TRANSPORTATION SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  CHALLENGING THE STATUS QUO AT TSA: 
         PERSPECTIVES ON THE FUTURE OF TRANSPORTATION SECURITY
=======================================================================

                                HEARING

                               BEFORE THE 

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2012

                               __________

                           Serial No. 112-103

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
79-845PDF                     WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>  







                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     7

                               Witnesses

Dr. Richard W. Bloom, Associate Vice President for Academics, 
  Director of Terrorism, Espionage, and Security Studies, Embry-
  Riddle Aeronautical University:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
Mr. Robert W. Poole, Jr., Searle Freedom Trust Transportation 
  Fellow, Director of Transportation Policy, Reason Foundation:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Rick ``Ozzie'' Nelson, Senior Fellow and Director, Homeland 
  Security and Counterterrorism Program, Center for Strategic and 
  International Studies:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Tom Blank, Executive Vice President, Gephardt Government 
  Affairs:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Ms. Colby Alonso, Association of Flight Attendants:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26


   CHALLENGING THE STATUS QUO AT TSA: PERSPECTIVES ON THE FUTURE OF 
                        TRANSPORTATION SECURITY

                              ----------                              


                         Tuesday, July 10, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:32 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cravaack, Turner, Jackson 
Lee, and Barber.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order. The 
subcommittee is meeting today to receive testimony on new and 
effective ways to secure critical transportation 
infrastructure. I would like to welcome everyone to the hearing 
and thank our witnesses for being here.
    I do want to give you a heads-up. We are scheduled to be 
called for a procedural vote, just one vote, thank goodness, 
any minute. So rather than keeping you all waiting and us 
holding you up here while we are waiting for them to call us to 
vote, I thought we would go ahead and start. I talked with a 
Democrat staff and Ranking Member Jackson Lee is on her way; we 
will go ahead and start.
    I will make my opening statement. She will make hers, and 
we will try to get as many of yours done as we can. Then we 
will have a brief recess, about 15 minutes. We will go make 
that vote and come back, then we will pick back up and go from 
there. So I apologize for the inconvenience, but they don't ask 
me about these things. They just kind of tell me. So I 
appreciate your patience on that. Let me start by saying that 
giving up on TSA without having something better to fill its 
place is not an option. For all its faults, the fundamental 
reason TSA was set up after 9/11 was to deploy enhanced 
security measures to prevent another attack on aviation. That 
security mission is just as important today, if not more 
important, than it was 11 years ago.
    Having said that, letting TSA carry on the way it has for 
the last 11 years is equally not an option. TSA's poor conduct 
is sending a strong message to the American taxpayer. The 
message is TSA doesn't care or doesn't know how to best serve 
and protect the traveling public. I am convinced we need to 
undertake a major reform to the Federal Government's role in 
our airports. I look forward to discussing some of those 
reforms here today.
    The fact is Band-aid measures won't solve TSA's problems. 
This is going to require a great deal of collective thought and 
ingenuity. The PreCheck program is a great first step, but at 
this stage, PreCheck doesn't benefit the average traveler in 
meaningful ways, and it is not clear where the program will go 
from here.
    Today's hearing is a chance to have an open discussion 
about ideas for meaningful reform at TSA. Building upon the 
success of PreCheck program, the private sector screening 
program, known as SPP, and others, I remain committed to fixing 
TSA and holding it accountable to do the job it was meant to do 
in the first place. But we need to make our transportation 
systems as secure as possible at the lowest cost possible and 
with the least intrusion to passengers.
    I want to extend a sincere thanks to the panel of witnesses 
we have here today for contributing their insight in this 
effort. With that, I will now suspend waiting for the Ranking 
Member and we will go to the opening statement of our first 
witness.
    There is a beeper--let us try to get at least two of these 
opening statements in and then I will recess.
    The first witness is Dr. Richard Bloom, who currently 
serves as associate vice president for academics and the 
director of terrorism and espionage and security studies at 
Embry-Riddle Aeronautical University.
    Prior to his current position, Dr. Bloom served as 
president of the Military Psychology Division of the American 
Psychological Association.
    Dr. Bloom carries out policy analysis and reviews applied 
research in aviation security threat assessment, terrorism and 
intelligence collection and analysis, covert action, 
counterintelligence, personnel security, and the psychology of 
information warfare.
    The Chairman now recognizes Dr. Bloom for your 5-minute 
opening statement.

  STATEMENT OF RICHARD W. BLOOM, ASSOCIATE VICE PRESIDENT FOR 
   ACADEMICS, DIRECTOR OF TERRORISM, ESPIONAGE, AND SECURITY 
         STUDIES, EMBRY-RIDDLE AERONAUTICAL UNIVERSITY

    Mr. Bloom. Well, thank you, Mr. Chairman, and thank you all 
Members of the subcommittee.
    There are a number of things I would like to share about 
the future of the Transportation Security Administration. No. 
1, I think we need qualitative and quantitative analyses of how 
effective TSA is at the moment and how much it has been in 
terms of how it's prevented, deterred, successfully resolved 
any incidents of terrorism and other crime as well, especially 
because terrorism and other kinds of crime are becoming more 
and more interrelated.
    As to the comparative analysis of the effectiveness of 
public and private approaches to security, I think that is not 
really the right question. The right question should be: What 
principles do we need to have the right people doing the right 
things, based on risk?
    No. 2, if we keep TSA, I think we need to ensure there are 
firewalls between whatever regulatory authorities might have 
and whatever security services they may be providing. We also 
need to decide whether it is too focused on aviation and too 
little focus on other transportation modalities. We also have 
to make a decision whether U.S. Government security efforts in 
general are too focused on transportation, to the exclusion of 
other terrorist and crime targets, given the infinite number of 
the latter.
    We have to have a greater perspective than transportation 
securities related to global, international, and regional 
cooperation, including that between transportation, security, 
and custom authorities.
    We have to focus less on how many and what kind of 
resources are enough for adequate transportation security and 
focus more on how do we get the most security with whatever 
resources are available.
    We have to move away from a vulnerability impact approach 
towards a better threat approach, towards an optimal risk 
estimate approach, but there are many complexities in doing 
that.
    Risk estimates have to continuously change because threat 
vulnerability in the world in general continually change. We 
have to develop and field various layers of transportation 
security so that they continuously change as risk estimates 
continuously change.
    There needs to be more equal integration of offensive and 
defensive security approaches. By offensive approaches, I am 
talking about perception management: How do we get fewer people 
to want to engage in or support terrorism or violate security?
    Also intelligence collection and analysis, we can identify 
the threat and then neutralize them, incarcerate them, detain 
them, whatever, and then of course the defensive approach is 
what the general public is more familiar with, the technology, 
the profiling, the behavioral detection and so on.
    They need to be, offensive and defensive, more fully 
integrated together.
    Very important, how transportation security personnel are 
selected, trained, and managed: Do they have the right stuff? 
Do we know what the right stuff actually is?
    Does training best conform with knowledge and skills 
associated with supporting security in the present and in the 
future? Are they treated right; salaries, benefits, awards, 
recognition, day-to-day respect?
    This is especially the case, given that terrorists have 
publicly stated that hurting their targets economically is a 
priority.
    Transportation security initiatives continue to be too 
focused on technology and technological fixes, not on the 
thought process involved in attacking and countering attacks.
    Terrorism ultimately is psychological. While its 
intermediate consequences are death, destruction, casualties, 
and damage, its ultimate consequences are to create and 
maintain desired perceptions and behaviors of specific targets 
surviving terrorist acts.
    TSA seems to be focused on terrorism's intermediary 
consequences without being integrated with U.S. Government and 
allied efforts on terrorism's ultimate consequences.
    Too many people in the United States expect total safety 
and security. This is an unreasonable mass psychology. At the 
moment, from the terrorist perspective, both objective success 
and objective failure qualify as subjective success, again 
because terrorism is ultimately psychological.
    TSA needs to better address this as it communicates to 
populations Nationally and internationally.
    Finally, our transportation security programs and their 
cost, including the existence and functioning of TSA, actually 
wins for terrorists because the economic resources utilized 
could be better used in other ways to strengthen our country.
    Thank you.
    [The prepared statement of Mr. Bloom follows:]
                 Prepared Statement of Richard W. Bloom
                             July 10, 2012
                 opportunities for status quo challenge
    Develop qualitative and quantitative analyses of TSA's 
effectiveness and cost to answer question of whether TSA should 
continue to exist. Effectiveness would include measures of prevention, 
deterrence, and the successful resolution of terrorism and other crime. 
Comparative analyses of various public and private approaches should 
also be part of addressing effectiveness and cost.
    Assess whether TSA should have regulatory authority over the 
security services it also provides. For example, does the Japanese 
experience with nuclear energy provision and regulation suggest that 
TSA's dual responsibilities mitigate against regulatory and service 
success?
    Continue to assess whether TSA is too focused on aviation, too 
little focused on other transportation modalities. Continue to focus on 
whether overall U.S. Government security efforts are too focused on 
transportation to the exclusion of other terrorist and crime targets.
    Regardless of the future of TSA, U.S. Government concerns about 
transportation security can only be resolved by more global, 
international, and regional cooperation including that between 
transportation security and customs authorities.
    Better differentiate among the three main definitions of security 
in TSA policies, programs, and procedures: (1) How secure we think we 
are; (2) how secure we actually are; and (3) what we do to achieve 
either or both of the first two--as a means to create more coherent 
policy and programs.
    Better address that what contributes to security one moment may 
also contribute to violating it another moment--based on the creativity 
and ingenuity of those seeking to violate transportation security 
through terrorism and other crime.
    Focus less on how many and what kind of resources are enough for 
adequate transportation security. Focus more on how do we get the most 
security with whatever resources are available. This is especially true 
with the United States and its allies facing fiscal and economic 
challenges globally, regionally, and domestically that necessitate 
budget reductions or trade-offs with other priorities.
    Continue to move away from a vulnerability-impact approach, away 
from a better threat approach, and towards an optimal risk estimate.
    Approach the ideal that risk estimates should continuously change 
because threat, vulnerability, and the world in general continuously 
change.
    Develop and field the various layers of transportation security so 
that they continuously change as risk estimates continuously change.
    More equally develop and field in an integrated fashion both 
offensive and defensive approaches. They should continuously match 
changes in risk estimates.
    The offensive approach includes perception management and 
intelligence collection and analysis. In perception management, various 
communication strategies are used to decrease how many people worldwide 
want to attack transportation or support those who do. For intelligence 
collection and analysis, information helps identify people intending to 
attack transportation or support those who do. Then--in a legally and 
ethically appropriate fashion--these people are detained, incarcerated, 
and/or neutralized.
    The defensive approach includes technologies and human activities 
to catch people and things constituting an attack on transportation--
often near the location of the attack. This includes physical barriers; 
motion detectors; closed circuit television; explosive, weapons, 
radiation, and other threat detection systems; behavioral detection and 
profiling systems; education, training, and assessment of human 
operators who engage in technology-, eye-, and hand-mediated searches; 
hardening of transportation cargo packaging; optimal configuring of 
transportation cargo; and various supply chain security programs.
    Resolve the challenge of time. Time works against transportation 
security. It's pretty easy to learn about specific security measures, 
and this provides the opportunity for people and organizations who seek 
to attack transportation to pre-empt, counter, work around, or just 
attack elsewhere. As resources continue to be sunk into a specific 
offensive or defensive approach, many of those who seek to attack 
transportation already have made allowances for security measures that 
have not even been fully fielded.
    Resolve the challenge of intelligence. While accurate and relevant 
information is crucial to our understanding the threats and 
vulnerabilities from which risk estimates come, this information is 
almost always incomplete, contradictory, and ambiguous. There also are 
many difficulties in sharing and transmitting this information to 
transportation security personnel in a manner that is timely, 
responsive, and secure. Too often, then, transportation security 
personnel are flying blind . . . or at least with impaired vision. 
There are always multiple threats, rarely actionable intelligence.
    Resolve the challenge of technology. Estimates of security 
technologies' effectiveness almost always keep decreasing as we move 
from the laboratory, to field test, to an every-day travel and 
operational environment. In fact, given the usually low probability of 
a terrorist attack or other security violation--save for actionable 
intelligence--statistically supporting the security effectiveness and 
utility of technologies is a very difficult thing to do.
    Resolve the challenge of profiling, behavioral detection, and 
interviewing techniques in operational environments. It's just 
extremely difficult to link specific aspects of people--sweating, 
facial expressions, clothing, how they talk, what they talk about, 
where they are in an airport or on-board an aircraft, let alone what 
they may be thinking and feeling to terrorist and criminal intent and 
behavior. And much more attention needs to be focused on the profiling 
of situations and environments. Profiling efforts should continue for 
shipments and things, as well as people.
    Resolve the challenge of how transportation security personnel are 
selected, trained, and managed. Let's see, these folks are being 
entrusted with our lives. Do they have the right stuff and do we know 
what the right stuff is--how to best think, what motivations are 
appropriate for wanting the job, what powers of concentration are 
appropriate, what types of emotional functioning are the right ones, 
what behavioral capabilities are necessary including fatigue tolerance 
and tolerance for people behaving at their worst? Does training best 
conform with knowledge and skills associated with actually identifying 
and stopping today's and tomorrow's terrorist and criminal attacks, not 
yesterday's? Are transportation security personnel treated right--
salaries, benefits, awards, and recognition, day-to-day respect?
    Resolve the challenge of the layers of security looking right. What 
does this mean? If the layers look predictable and are predictable, we 
have a big problem. This is because surveillance, reconnaissance, and 
probing transportation security systems too often occur by potential 
terrorist and criminal planners. Even the everyday security violations 
like people going through the wrong door, entering restricted areas 
accidentally, or leaving baggage unattended are studied by potential 
terrorists for clues to the likely responses of transportation security 
systems when a real attack occurs. A better choice is looking 
predictable but being unpredictable. A best choice is looking 
unpredictable and being unpredictable.
    Resolve the challenge of culture. Cultural blinders impede how we 
understand other people. Let's face it, even well-intentioned people 
can be victims of their own racial, ethnic, ideological, and other 
prejudices. These make it very difficult to implement some of the 
offensive and defensive approaches to transportation security. As we 
try to win hearts and minds of people throughout the world, we may be 
creating enemies or just not affecting people at all--or affecting 
different kinds of people in unknown ways. As just one example, when we 
neutralize terrorists with violence, we may be increasing their total 
number and losing opportunities to interrogate for valuable 
information. This doesn't excuse or condone the threat. It does show 
the difficulties in maintaining acceptable levels of security
    Resolve the challenges of transportation security cost and value. 
Governments and businesses continue to grapple towards accurate 
calculations on the trade-offs of security overhead, impact on 
security, profit-and-loss implications. What are needed are qualitative 
and quantitative analyses and measures of deterring, preventing, and 
successfully managing transportation terrorism and other crime--
including measures of false positives and false negatives in 
operational environments. This is especially the case given that 
terrorists have publicly stated that hurting their targets economically 
is a priority. Are transportation security programs and their costs--
including the existence and functioning of TSA--actually wins for 
terrorists?
    Minimize the noxious consequences of partisan politics and turf 
battles. Yes, there are highly competent political leaders with 
backbone and character who do the right thing. But there are others who 
engage in public posturing, outright lying, making true-believer 
statements based on sheer ignorance, supporting positions based on 
trading favors, doing whatever it takes to get elected, and all the 
rest. This has been the case throughout history for all known cultures. 
Even our truly great political leaders often have to make compromises 
with such people . . . and transportation security can suffer. This 
occurs in the context of a constant tension among the budgetary 
interests of government, industry, academia, and the general public 
versus legitimate transportation security needs.
    Resolve the challenge of transportation cargo value. For example, 
much less attention and fewer resources have been addressed to the 
threat facing air cargo than to that facing passengers. Many citizens 
and legal authorities seem to have less concern about aircraft carrying 
only cargo and a crew than about commercial passenger flights with 
cargo. That air cargo containing explosive materiel or other noxious 
agents, whether on commercial passenger aircraft or on flights without 
commercial passengers, can endanger large numbers of people seems to be 
ignored, discounted, or repressed. Depending on the type of attack, the 
consequences could include large numbers of human casualties; a small 
number of casualties with high symbolic value; and symbolic, 
significant, and even catastrophic damage and destruction to 
communications, energy, and other infrastructure of National and 
international significance--all with potentially huge economic damage.
    Resolve the challenge of transportation cargo variety. Cargo varies 
in content, how the content is packaged and situated, and the 
configuration and other characteristics of the transport vehicle. The 
associated screening challenges include physical damage related to the 
method of screening; levels of screening specificity and sensitivity 
related to the cargo content; and terrorist knowledge of screening 
methods.
    Resolve the challenge of supply chain links and nodes. The biggest 
problem here is the number of entities involved in the cargo supply 
chain. A partial, generic list of supply chain entities: Manufacturers, 
manufacturing facilities, freight forwarding facilities, shipping 
facilities, third-party logistics providers, warehouses, other 
distribution centers, independent cargo screening facilities, and more. 
The associated screening challenges include physical damage related to 
the method of screening; levels of screening specificity and 
sensitivity related to the cargo content; and terrorist knowledge of 
screening methods.
    Resolve the challenge of the cargo security puzzle. What is this 
puzzle? Implementing total, comprehensive, and intrusive screening can 
significantly hurt our economy through huge costs of implementation. 
[And there still will be significant error rates]. But partial and less 
comprehensive and less intrusive screening also can significantly hurt 
our economy through its very incompleteness leading to a greater 
probability of successful terrorist attacks. The same applies to doing 
nothing. Any way you cut it, terrorism seems to have a good shot at 
being successful. Other transportation-related crime much more so. 
Again, the costs of transportation cargo security may be an example of 
terrorist on-going success. The key to counterterrorism and other 
counter-crime successes is optimal intelligence collection, analysis, 
and dissemination in a secure, responsive, and timely fashion.
    Resolve the insider threat to transportation security. 
Psychological research on how good people can go bad and bad people can 
go good need to be studied, implemented, and assessed.
                              conclusions
    Terrorism ultimately is psychological. While its intermediate 
consequences are death, destruction, casualties, and damage, its 
ultimate consequences are to create and maintain desired perceptions 
and behaviors of specific targets surviving terrorist acts. TSA seems 
to be focused on terrorism's intermediary consequences without being 
integrated with U.S. Government and allied efforts on terrorism's 
ultimate consequences.
    Specific kinds of public discourse and classified analyses of 
terrorism--including resulting estimates of threat, vulnerability, and 
risk--are themselves targets of terrorism. So are specific security 
programs. TSA seems to be inadequately focused on the potential for its 
actions to support desired terrorist consequences.
    Too many people in the United States expect total safety and 
security--an unreasonable mass psychology that has not been addressed 
adequately by political and security leaders. At the moment, from the 
terrorist perspective, both objective success and objective failure 
qualify as subjective success . . . again because terrorism is, 
ultimately, psychological. TSA needs to better address this as it 
applies to transportation security.
    Transportation security initiatives continue to be too focused on 
technology and technological fixes, not on the thought processes 
involved in attacks and countering attacks.
    It's less important to find some minimum resource threshold below 
which transportation security is unacceptably endangered. More 
important is to do what's best with the resources we have. In our 
favor, resources not directly allocated to support security can be 
still contribute to counterterrorism success and failure.
    Transportation is only one of an infinite number of targets for 
terrorism and other crimes like illicit trafficking and theft. Unless 
TSA can be shown to provide more value than cost in an era of competing 
budgetary and security needs, its disestablishment should be seriously 
considered.
    Prudence and good judgment are essential as we move forward. Yet, 
in the history of the world, both are usually in short supply.

    Mr. Rogers. I thank the gentleman for his opening 
statement.
    We have now been joined by my friend and colleague from 
Texas, Ms. Jackson Lee, and she is now recognized for her 
opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies.
    Just for the record I will indicate that many times, as 
usual, Judiciary Committee is engaged in a markup so I thank 
you, Mr. Chairman, for your courtesies.
    I always am just very happy to see all of the witnesses but 
I am even happier to be able to welcome Mr. Barber of Arizona 
as a new Member of the committee.
    It is important to note that he comes from a very important 
State, the State of Arizona, and he has had a very important 
predecessor, Ms. Giffords, and of course he brings to this 
committee a commitment and concern about securing the homeland.
    I think it is extremely important to add to our western 
presence and, Mr. Barber, you have welcomed and thank you so 
very much for your service to this country.
    Mr. Barber. You are very welcome.
    Ms. Jackson Lee. Thank you.
    Let me indicate, I always start by indicating that on 9/11 
Transportation Security Administration and TSO officers were 
not in place and we lost thousands of lives.
    It is all right to ask and analyze the going forward of the 
Texas, excuse me, the Transportation Security Administration, 
but as I listen to our witnesses today many of you may have 
taken some mode of transportation. Many of you may have flown. 
A flight attendant flies often.
    All of the critiquing does not take away the value of the 
Transportation Security Administration and TSO officers. I will 
be listening as I am in and out on solutions.
    Solutions is the key of what we must proceed on. Terrorists 
remain determined to attack our transportation system and we 
must match their determination with our vigilance.
    Our perspective on transportation security changed after 
September 11. We established a 9/11 Commission and passed 
legislation, which was based on the Commission's 
recommendation. I think we have done quite well.
    We have not had a terrorist act on our soil. Yes, there 
have been a number of threats, those that have not been public. 
But with the combined labor of TSO officers, others on the 
front lines, intelligence collaboration, we are not what we 
were pre-9/11.
    We must all remember that in the wake of 9/11 our first 
step was the creation of TSA and the replacement of contract 
guards with Federal employees at this Nation's airport 
checkpoints.
    I travel throughout this Nation and I stop and talk to TSO 
officers. They are former police persons, military persons, and 
they are public servants and they are serving their Nation.
    I will have great quarrel with any testimony that offers to 
suggest we need to change them out and that there is a status 
quo. What I will say is I am always prepared to ensure a more 
efficient, effective, experienced group of public servants and 
I welcome, in collaboration with the Chairman, to do so.
    The American public needed to know that each passenger 
would be screened and each bag would be checked. We owed it to 
the 3,000 people who died that day to ensure that this would 
not happen again.
    Mr. Chairman, I welcome our efforts, as I said, to continue 
to improve they system that secures our Nation's skies. Today 
we will take a closer look at TSA's risk-based approach and the 
agency's efforts to effectively address threats in 
transportation security.
    There have been many changes and they are looking forward 
to those changes. The threat to inbound passenger and cargo 
flights remains a reality.
    These threats can only be resolved if Members of this body 
are not afraid to ask difficult questions or embrace complex 
answers, but not take a widespread view that we must throw out 
the Transportation Security Administration or TSO officers.
    Our witnesses today will discuss various ideas for 
improving TSA's risk-based approach to securing our aviation 
sector. As the authorizing committee for TSA, it is certainly 
appropriate for us to hear and consider ideas from those who do 
not work for TSA. In particular I look forward to hearing from 
Ms. Alonso, a flight attendant who will provide her front-line 
perspective on how TSA can enhance its layered security.
    As we know, flight attendants do not just serve beverages. 
They are often the first crewmembers to recognize and address 
safety and security problems.
    As a most recent example, this just took place a week ago 
in China, crewmembers and passengers foiled a hijacking of the 
six people attempted to break into the cockpit door.
    Further, just this year we have had a number of instances 
in which the decisive actions of flight personnel ensured the 
safety and security of passengers. In each of these instances, 
in-cabin security was the last line of defense in thwarting 
potential terrorist acts.
    To further reiterate, the threats we face in aviation, must 
remember these incidents that frame our security discussions 
today, I will just highlight December 22, Flight 63, American 
Airlines to Miami from Paris, self-proclaimed al-Qaeda 
operative attempted to detonate an explosive device.
    December 25, Umar, the Christmas day bomber, also 
remembered as the underwear bomber, attempted to detonate his 
underwear. Finally, on May 22, American Airlines 787 from Paris 
to Charlotte was diverted to Bangor after a passenger claimed 
to have an explosive device in their body.
    All these incidents took place of flights inbound to the 
United States. Ms. Alonso was on the flight in May. I look 
forward to hearing her testimony concerning this incident. Her 
testimony will offer the kind of operational insight we need to 
examine what should be done when all other layers of security 
have been compromised.
    Yes, we need to expand TSA to other modes of 
transportation. Yes, we need to be efficient, effective, and 
even look closely at how we use the personnel at TSA, but I 
will be continuously committed to the structure that we put in 
place. Let us look for solutions and answers as we work to 
improve the security of this Nation.
    I yield back.
    Mr. Rogers. I thank the gentlelady.
    The Chairman now will recess the committee for--subject to 
the call of the Chairman, which should be about 15 minutes.
    [Recess.]
    Mr. Rogers. This subcommittee hearing is called back to 
order. While we are waiting for the Ranking Member to return 
from the vote, we will go ahead and pick back up with our 
testimony. I want to thank Dr. Bloom for his opening statement, 
and turn now to our second witness.
    Mr. Robert Poole currently serves as director of 
transportation policy at the Reason Foundation. Mr. Poole co-
founded the Reason Foundation in 1978 and served as its 
president and CEO until 2000. Mr. Poole has written hundreds of 
articles, papers, and policy studies on privatization in 
transportation issues, and currently writes a monthly column on 
transportation issues for the Public Works Financing. The 
Chairman now recognizes Mr. Poole for his opening statement. 
You are recognized for 5 minutes.

    STATEMENT OF ROBERT W. POOLE, JR., SEARLE FREEDOM TRUST 
   TRANSPORTATION FELLOW, DIRECTOR OF TRANSPORTATION POLICY, 
                       REASON FOUNDATION

    Mr. Poole. Thank you for having me, Mr. Chairman. I have 
been researching aviation security since 2001, and I have been 
studying competitive contracting of public services since I 
wrote the first book on the subject in 1980.
    When Congress enacted the ATSA legislation after 9/11, it 
built in a conflict of interest for the TSA. That agency is in 
charge of aviation security regulation, but it also operates 
the largest component of airport security, passenger and 
baggage screening. TSA regulates airports, airlines, rail 
roads, and transit at arm's length, but when it comes to 
passenger screening, TSA basically regulates itself.
    Self-regulation is inherently problematic. The tendency of 
any large organization is to defend itself against criticism 
and make its image as positive as possible. So when screeners 
perform poorly, TSA defends itself and minimizes the problem. 
In addition, having TSA operate the screen conflicts with the 
idea of unified airport security accountable to a single 
airport security official.
    The U.S. model that combines regulation and screening is 
also out of step with other countries. I did a report for the 
OECD on screening in 2008. I compared the way it is done in 
Canada, the European Union, and the United States. In Canada 
and the European Union, security regulation is done by a 
National agency, like here, but screening is done either by the 
airport or by security companies.
    Separation of regulation from service provision is also 
called for by ICAO security regulations. Member states are 
supposed to notify ICAO if their practice differs from the 
standard. The United States has never notified ICAO that we are 
in noncompliance. Oddly enough, the United States came close to 
adopting this international model.
    Following 9/11, the House version of ATSA, which passed by 
a large margin, removed airport screening from the airlines 
where it should never have been and made it an airport 
responsibility under new Federal regulation and oversight. But 
many officials and commentators incorrectly believed that 
flawed screening what was enabled the 9/11 attacks to succeed, 
which was not the case.
    So therefore they insisted on Federalizing screening, 
meaning creating a Federal workforce to take it over. That 
approach passed the Senate unanimously. In the conference 
committee, unfortunately from my standpoint, the Senate version 
prevailed with the House only getting a five-airport pilot 
program for opt-out, and the promise that all other airports 
could eventually opt out.
    So when TSA created the SPP opt-out program, it designed a 
highly-centralized version of competitive contracting. When 
most governments want to contract for a service, they issue an 
RFP, select the best proposal, sign a contract and manage the 
relationship.
    So you would expect that, as in Europe, the airport would 
issue the RFP to companies that TSA had certified. The airport 
would select the best proposal from among those companies and 
then contract with that company, and TSA would regulate the 
overall situation. But that is not how SPP works.
    Instead, the airport asks TSA if it may opt out. If TSA 
approves, then TSA selects a contractor and assigns it to the 
airport. TSA signs the contracts and manages the contracts, 
leaving the airport out of the loop. TSA also spells out in 
detail the procedures and the equipment that the company must 
use, and the legislation mandates that screening companies pay 
the same wages and benefits as TSA.
    Contrast that with the performance contracting approach, as 
in Europe. If we had that approach, TSA would certify qualified 
companies, would define the outcome measures that are supposed 
to be achieved for airport screening. The companies could 
design their own procedures and use various approved 
technologies to achieve the required outcomes.
    This would allow screening companies to innovate. For 
examples, screeners could be cross-trained to do other airport 
security tasks, thereby strengthening other aspects of airport 
security and enriching the screener's work experience.
    Now even with all the constraints on today's contractors, 
the private sector is delivering more cost-effective screening. 
The House T&I Committee in 2011 compared TSA's screening at LAX 
with contract screening at SFO. They found SFO's contract 
screening is 65 percent more productive than TSA's screening at 
LAX. If the SFO model were implemented at LAX, the savings 
would be $42 million per year.
    And this--the reasons for this higher productivity, much 
higher turnover of TSA screeners, to recruitment and training 
costs are higher. TSA has to use its National deployment force, 
which is very expensive, to fill in the gaps caused by that 
high attrition rate. Security companies also do a much better 
job of using part-time screeners to cover the peak periods 
instead of having all--almost all full-time people.
    I have two recommendations for reform of the program. 
First, reduce the centralized nature of SPP by permitting each 
airport to choose its own screening company from among those 
TSA has certified, and let the airport manage the contract 
under TSA's overall regulatory oversight at the airport.
    Second, and probably longer-term, Congress should revise 
the ATSA legislation to remove the built-in conflict of 
interest, devolving all screening to the airport. Each airport 
could either operate and manage the screening itself, as many 
airports in Europe do, or contract with a TSA-approved company.
    In either case, current TSA screeners should--would and 
should have first preference for the screening jobs. This 
change would produce greater accountability for screening 
performance, and it would bring the United States into 
conformity with ICAO regulations.
    Thank you for this time, and I will be happy to answer 
questions later.
    [The prepared statement of Mr. Poole follows:]
               Prepared Statement of Robert W. Poole, Jr.
                             July 10, 2012
    My name is Robert Poole. I am the director of transportation policy 
at the Reason Foundation. Much of my work deals with aviation policy, 
including airport security. Prior to my current position at Reason, my 
principal area of expertise was competitive contracting of public 
service delivery; I am the author of the first full-length book on the 
subject, back in 1980 (Cutting Back City Hall, Universe Books, 1980).
                       a major design flaw in tsa
    I served as an advisor to the House Transportation & Infrastructure 
Committee in the days following the 9/11 attacks, as Congress was 
grappling with how to improve aviation security. The legislation that 
created the TSA--the Aviation & Transportation Security Act (ATSA) of 
2001--built in a conflict of interest in the new agency. On the one 
hand, TSA is designated as the agency that establishes transportation 
security policy and regulates those that provide transportation 
operations and infrastructure (airlines, airports, railroads, transit 
systems, etc.). But on the other hand, TSA itself is the operator of 
the largest component of airport security--passenger and baggage 
screening.
    When it comes to screening, therefore, TSA has a serious conflict 
of interest. With regard to all other aspects of airport security--
access control, perimeter control, lobby control, etc.--security is the 
responsibility of the airport, under TSA's regulatory supervision. But 
when it comes to screening, TSA regulates itself. Arm's-length 
regulation is a basic good-government principle; self-regulation is 
inherently problematic.
    First, no matter how dedicated TSA leaders and managers are, the 
natural tendency of any large organization is to defend itself against 
outside criticism and to make its image as positive as possible. And 
that raises questions about whether TSA is as rigorous about dealing 
with performance problems with its own workforce as it is with those 
that it regulates at arm's length, such as airlines and airports. This 
comes up again and again in news stories--such as a USA Today 
investigation in 2007 found that TSA screeners at Chicago O'Hare and 
LAX missed three times as many hidden bomb materials as did privately-
contracted screeners at SFO. TSA's 2007-08 studies comparing TSA and 
private screening costs were criticized by GAO as highly flawed and 
misleading.
    Second, having TSA operate airport screening conflicts with the 
idea of each airport having a unified approach to security, with 
everyone responsible to the airport's security director. Numerous 
examples of divided security have been reported at airports over the 
past decade, where certain responsibilities have fallen between the 
cracks and neither the airport nor the TSA was on top of the problem. 
Examples include video surveillance cameras at Newark and access 
control doors at Orlando.
                    out of step with other countries
    In 2008 the OECD's International Transport Forum commissioned me to 
do a research paper comparing and contrasting aviation security in the 
United States, Canada, and the European Union. In the course of that 
research, I was surprised to discover that the conflict of interest 
that is built into TSA does not exist in Canada or the E.U. countries. 
If you go to Canada or any of the major E.U. countries, airport 
screening looks similar to what you experience at U.S. airports. But 
the way in which this service is provided and regulated is quite 
different. In all these cases, the policy and regulatory function is 
carried out by an agency of the national government, as in the United 
States. But actual airport screening is carried out either by the 
airport itself or by a Government-certified private security firm. 
Legally, in Europe airport security is the responsibility of the 
airport operator. Whether the screening is carried out by the airport 
or a security company varies from country to country, but in no case is 
it carried out directly by the National Government aviation security 
agency.
    In Canada, the legislative body created an aviation security agency 
following 
9/11--the Canadian Air Transport Security Authority (CATSA). Transport 
Canada remains responsible for airport security policy and regulation, 
while CATSA is responsible for the mechanics of airport security, such 
as development of biometric ID cards and implementing a system of 
airport screening. But rather than providing the screening function 
itself, CATSA certifies private security companies and contracts with 
them to provide screening services at the 89 airports where such 
services are provided.
    Separation of aviation security regulation from the provision of 
security services is called for by the International Civil Aviation 
Organization (ICAO), to which the United States (along with 188 other 
countries) is a signatory. This policy is found in ICAO Annex 17, 
Standard 3.4.7. Under the Chicago Convention which created ICAO, 
``contracting states are required to notify [ICAO] of any differences 
between their national regulations and practices'' and ICAO's 
international standards. On this point, the United States has failed to 
notify ICAO that it does not comply.
       the united states came close to adopting the eu/icao model
    In the difficult months following the 9/11 terrorism attack, there 
was intense political pressure to improve U.S. aviation security. 
Despite the fact that the low-quality airline-operated screening was 
not responsible for the 9/11 disaster, numerous commentators and public 
officials called for ``Federalizing'' airport screening. The Senate's 
version of ATSA embodied this view, calling for a new Federal workforce 
to be parachuted into some 450 U.S. airports; it passed 100-0. The 
House, by contrast, took somewhat more time and learned that only two 
other countries had delegated airport screening to airlines as an 
unfunded mandate (Bermuda and Canada). They also heard testimony about 
the performance contracting model widely used in Europe well before 
2001, a fact documented in a GAO report that year.
    The resulting House bill removed screening from the airlines and 
shifted it to airports, under Federal regulatory supervision and 
permitted E.U.-type performance contracting. Both airport 
organizations, ACI-NA and AAAE, supported the House bill, which passed 
by a wide margin, 286-139. But in the subsequent conference committee, 
the Senate version of Federalizing security largely prevailed. The only 
consolation prize given to the House was a five-airport opt-out pilot 
program, and the promise that eventually all airports would be given 
the right to opt out of TSA-provided screening.
              tsa contracting vs. performance contracting
    Competitive contracting has been widely used at local, State, and 
Federal levels of government. In recent decades, it has been embraced 
by elected officials of both parties as a way of achieving greater 
value for the taxpayer's dollar. One of the most influential books on 
the subject was Reinventing Government by David Osborne and Ted 
Gaebler, advisors to Vice President Gore's National Performance Review 
project. Under this approach, a government wanting a service delivered 
more cost-effectively must define the outcomes it wishes to achieve, 
leaving qualified bidders free to propose their own procedures and 
technology for achieving those outcomes. Such contracts typically 
stress measurement of outcome variables, and often provide financial 
penalties and bonuses.
    By contrast, under the Screening Partnership Program (SPP) set up 
by TSA's interpretation of the opt-out provisions in the ATSA 
legislation, the entire process is micromanaged by TSA. Instead of 
permitting the airport in question to issue an RFP to TSA-certified 
firms, TSA itself selects the company and assigns it to the airport. 
And TSA itself manages the contract with the screening company, rather 
than allowing the airport to integrate screening into its overall 
security program, under TSA supervision and regulation. Moreover, TSA 
spells out procedures and technology (inputs) rather than only 
specifying the desired outcomes of screening, thereby making it very 
difficult for screening companies to innovate. Moreover, the ATSA 
legislation mandates that compensation levels for private screeners be 
identical to those of TSA screeners.
    Under a performance contracting approach, with screening devolved 
to the airport level, TSA would continue to certify screening companies 
that met its requirements (e.g., security experience, financial 
strength, screener qualifications, training, etc.). It would also spell 
out the screening performance measures (outcomes) that companies or 
airports would be required to meet. Airports would be free to either 
provide screening themselves (with screeners meeting those same TSA 
requirements) or to competitively contract for a TSA-certified 
screening company. Companies bidding in response to the airport's RFP 
would propose their approach to meeting the performance requirements, 
in terms of staff, procedures, and technology. This could include, for 
example, cross-training screeners to carry out other airport security 
duties, such as access and perimeter control. The airport would select 
the proposal that offered the best value, subject to TSA approval. TSA, 
in its role as regulator, would oversee all aspects of the airport's 
security operations, including screening.
         even today's limited spp shows private-sector benefits
    Observers such as the GAO have noted how little flexibility private 
screening contractors have over the variables involved in providing 
this service, given the narrow confines of ATSA and TSA's highly 
centralized way of implementing SPP contracts. Yet the limited 
available information suggests that even within those constraints, the 
private sector is more flexible and delivers more cost-effective 
screening.
    The most dramatic data come from a study carried out by the staff 
of the House Transportation & Infrastructure Committee in 2011. They 
obtained data on screening at two major airports, LAX with TSA 
screening and SFO with contractor screening. Both are Category X 
airports, the highest level in TSA's categorization of airports. The 
study found that the company at SFO is dramatically more productive, 
processing an average of 65% more passengers per screener than TSA 
screeners at LAX. If the screeners at LAX had comparable productivity, 
the screener workforce at LAX could be 867 persons smaller, saving $33 
million per year.
    Given that the company serving SFO is required by law to pay the 
same wages and benefits to its screeners as TSA, and to use essentially 
the same procedures and equipment, what accounts for this enormous 
difference in productivity? One factor is a 58% higher attrition rate 
for LAX screeners, compared with those at SFO. That means significantly 
greater recruitment and training costs for screening at LAX. Another 
result of higher turnover is that the LAX screener workforce needs to 
be backed up by the expensive TSA National Deployment Force, to fill in 
temporary vacancies. No such backup is needed at SFO. Third, the 
private sector has done better than TSA at hiring and retaining part-
time screeners to handle peak periods, rather than staffing up with 
enough full-timers to handle peaks and therefore paying some of them 
for unproductive off-peak hours. Overall, the study estimated that 
screening at LAX would cost $42 million less per year if it were 
carried out via an SFO-type screening contract.
    Neither the outside study that TSA commissioned from Catapult 
Consultants in 2007 nor TSA's own study that was sharply criticized by 
the GAO identified these major productivity differences. Both focused 
mostly on accounting costs, omitting various overhead costs and extras 
such as the cost of using the National Deployment Force. Those 
essentially ``inside'' studies created the misleading impression that 
it costs more, rather than less, to contract with qualified security 
firms for airport screening.
                            recommendations
    Based on the foregoing assessment, I have two recommendations for 
improving airport screening.
    The most urgent one is to further reform the current SPP. Recent 
legislation that puts the burden of proof on TSA in denying an 
airport's request to opt out of TSA-provided screening is a modest step 
in the right direction, but does not correct TSA's overly centralized 
approach. SPP should be further reformed so that:
  <bullet> The airport, not TSA, selects the contractor, selecting the 
        best-value proposal from TSA-certified contractors.
  <bullet> The airport, not TSA, manages the contract, under TSA's 
        overall regulatory oversight of all security activities at the 
        airport in question.
    I believe these changes could be made by directing TSA to adopt 
them as policy changes, without the need to revise the actual language 
of the ATSA legislation.
    Second, I recommend revising the ATSA legislation to remove the 
conflict of interest that Congress built into that law. The revision 
would devolve the responsibility for passenger and baggage screening 
from TSA to individual airports, as part of their overall security 
program. Airports would have the option of either hiring a qualified 
screener workforce or contracting with a TSA-certified security firm. 
As is already standard practice when airports join SPP, current TSA 
screeners would have first right to screening positions at the airports 
shifting over, subject thereafter to the airport's or the company's 
rules and human resources policies. This change would produce greater 
accountability for screening performance and would also bring the 
United States into full conformity with ICAO regulations.
    This concludes my testimony. I would be happy to answer questions.

    Mr. Rogers. Thank you, Mr. Poole, for your testimony. Our 
third witness, Mr. Ozzie Nelson. I like that. I grew up in that 
era. Some of these youngsters back here don't know who that is, 
but I think that is pretty cool. Currently serves as senior 
fellow and director of Homeland Security and Counterterrorism 
Program at the Center for Strategic and International Studies.
    Mr. Nelson joined CSIS in September 2009 after retiring 
from the U.S. Navy where he served in a variety of senior 
policy and operational positions. In 2005, he was selected to 
serve as an inaugural member of the National Counterterrorism 
Center's Directorate of Strategic Operational Planning.
    Prior to his assignment at the NCTC, Nelson served as 
associate director for maritime security in the Office of 
Combating Terrorism on the National Security Council staff at 
the White House where he led the development of the National 
Strategy on Maritime Security.
    The Chairman now recognizes Mr. Nelson for 5 minutes to 
summarize his testimony.

STATEMENT OF RICK ``OZZIE'' NELSON, SENIOR FELLOW AND DIRECTOR, 
  HOMELAND SECURITY AND COUNTERTERRORISM PROGRAM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Nelson. Thank you.
    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, 
and distinguished Members of the subcommittee. Thank you for 
the opportunity to testify today. I would like to take this 
time to discuss how the Transportation Security Administration 
Congress and the American people can work together to enhance 
aviation security in the coming years.
    The manner in which the TSA was created and the 
requirements we have placed on it have, unfortunately, led to 
an inherently flawed system. The TSA was not carefully designed 
but instead cobbled together and stood up in the middle of a 
crisis just a few short months after 9/11.
    Further, we charged it with the immense responsibility of 
mitigating every potential risk to America's transport system. 
In doing so, we created an unworkable ``zero-failure'' 
construct in which no risk was acceptable.
    The hurried creation untenable model has constrained TSA 
and fueled bad policy and bad practice. If TSA is to become the 
agency we want it to be, then we must give it the support and 
operational freedom it needs to evolve.
    At the same time, we must remain cognizant of continued 
threats to the homeland. While the core of al-Qaeda that 
perpetrated 9/11 has been significantly reduced, its 
international affiliates continue to pose a threat to the 
aviation system.
    Our remarks today will focus on three key areas where I 
believe evolution can occur: Risk-based strategies, science and 
technology, and strategic communications.
    The first step in TSA's evolution must be the full embrace 
of intelligence-driven, risk-based models of security. While 
significant progress has been made under Administrator John 
Pistole, the system still tends to treat every passenger like a 
potential terrorist, wasting time and resources in extensive 
screening and monitoring procedures.
    Adopting a model of security based on risk in which limited 
resources are applied strategically would increase the 
effectiveness of our overall security efforts and decrease the 
cost associated with the screening of millions of individuals 
every day.
    Keys to the success of this risk-based model would be 
information intelligence-sharing efforts. While significant 
progress has been made in improving information sharing at the 
Federal level, we still need to perfect sharing with State and 
local entities as well as the private sector.
    Further, given the international nature of aviation 
systems, we must improve with our international partners.
    Thankfully, TSA has already moved in this direction through 
such efforts as a PreCheck program. However, we must seek to 
expand these types of trusted traveler programs.
    As we move forward, we must remember that with these 
efforts, risk-based screenings do involve an inherent degree of 
risk. In implementing them, we must be willing to accept the 
potential consequences. We simply cannot revert to a broken 
``zero failure'' model if and when there is another terrorist 
incident. But we must commit ourselves to making a risk-based 
model work.
    Yet adopting risk-based security will not be enough. In 
today's atmosphere of fiscal austerity, technology represents 
another means to increase efficiency without compromising 
security. Therefore, it is essential that the Department of 
Homeland Security's Sciences and Technology budget be 
maintained.
    While there may be immense short-term pressure to cut S&T 
funding, Congress must think of the long-term savings and 
efficiencies the technology represents.
    For instance, S&T recently created technology for detecting 
explosives in checked luggage that is ten times more powerful 
than existing systems, yet still costs the same.
    It will be necessary moving forward to incentivize private 
companies to invest in homeland securities. An important step 
would be for DHS to issue clear requirements for technology 
acquisition and provide multi-year funding guidance which will 
help private industry and direction insurance that need to 
develop these two technologies.
    It would also be worthwhile to investigate the feasibility 
of a venture capital firm that would identify and invest in 
companies developing cutting-edge technologies applicable to 
homeland security. In developing such a model, TSA could look 
to the relationship between In-Q-tel and the intelligence 
community.
    Yet, even if the technologies are improved, TSA will 
continue to face challenges with its public images and 
hindering its evolution. Few, if any, U.S. Government agencies 
interact in such a consistent and personal level with the 
general public as does TSA.
    While TSA has already begun implementing image-building and 
communications initiatives such as ``TSA Cares'', it will be 
impossible for TSA to improve its image significantly if 
Government officials continue to use the agency as a source of 
political rhetoric. TSA can grow into a respected, efficient, 
and effective institution only if it is depoliticized.
    TSA also needs to communicate with and utilize travelers to 
a greater degree for everyone's mutual benefit. TSA should 
explore programs such as DHS's ``If You See Something, Say 
Something'' campaign by educating travelers on what they can do 
for aviation's safety and then trusting them to do this. TSA 
can utilize passengers in a constructive manner.
    Finally, TSA would benefit immensely from a greater degree 
of leadership continuity. TSA's challenging, and unfortunately 
highly politicized, mission demands leadership that transcends 
the political cycle.
    The administrator position should perhaps be treated 
similar to the director of the FBI, which is a set 10-year 
term. Since its inception, TSA has had five administrators, 
while in this time, the FBI has had one director.
    Extending the terms of the TSA administrator would help 
them depoliticize the position while increasing their ability 
to institute long-term plans and evolve the organization to 
what we need it to be.
    In conclusion, there are a variety of means by which we can 
meet the challenges transportation security, particularly 
aviation, faces.
    I want to recognize that TSA is already on the right path 
toward finding innovative ways to meet these challenges and 
Administrator Pistole should be commended for his leadership.
    I look forward to your questions. Thank you for the 
opportunity to testify.
    [The prepared statement of Mr. Nelson follows:]
              Prepared Statement of Rick ``Ozzie'' Nelson
                             July 10, 2012
    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today. I will be discussing how the 
Transportation Security Administration (TSA), Congress, and the 
American people can work together to enhance aviation security in the 
coming years.
    The manner in which the TSA was created and the requirements we 
have placed on it have, unfortunately, led to an inherently flawed 
system. Following the fall of the Soviet Union, we had an opportunity 
to prepare ourselves to meet new threats, including to our 
transportation sector. Yet instead of creating homeland and 
transportation security agencies then, we waited until we were in a 
crisis. After September 11, we cobbled together and stood up the TSA in 
a matter of a few brief months. Further, we charged this new entity 
with the immense responsibility of mitigating every potential risk to 
America's transport system. In doing so, we created an unworkable 
``zero-failure'' construct in which no risk was acceptable. The TSA is 
expected to maintain absolute security without infringing upon 
passengers' civil liberties or making travel a cumbersome experience--
an unreasonable and arguably unattainable goal. In 2011, an average of 
2.2 million airline passengers passed through TSA airport checkpoints 
every day.\1\ This figure does not take into account passenger transit 
on all the other forms of mass transportation that the TSA is charged 
with protecting. Given this enormous volume of passengers, it is 
impossible for any agency to completely mitigate all risk to our 
transport system, yet we have been forcing TSA to operate under a model 
that promotes this goal, fueling bad policy and practice. If TSA is to 
become the agency we want it to be, then we must give it the support 
and operational freedom to do so.
---------------------------------------------------------------------------
    \1\ http://www.transtats.bts.gov/Data_Elements.aspx?Data=1.
---------------------------------------------------------------------------
    At the same time, we must remain cognizant of continued threats to 
the homeland. While the core of al-Qaeda that perpetrated 9/11 has been 
significantly reduced, its international affiliates--including al-Qaeda 
in the Arabian Peninsula and a host of al-Qaeda-inspired homegrown 
terrorists, among others--continue to pose a threat to the aviation 
system. For whatever reason, al-Qaeda and its affiliates remain 
obsessed with attacking the aviation system. While this conveniently 
allows us to focus our resources on aviation, we must not be 
complacent. The threat will change over time and our enemies will seek 
to exploit vulnerabilities in other sectors of transportation system. 
If TSA is to meet these threats, it must be allowed to evolve beyond 
its current construct.
    My remarks today will focus on three key areas where I think 
improvements can be made: Risk-based strategies, science and 
technology, and strategic communications. I hope that my remarks will 
serve to advance the homeland security dialogue between the TSA, 
Congress, and the American people.
                         risk-based strategies
    The first step in TSA's evolution must be to fully embrace 
intelligence-driven, risk-based models of security. While significant 
progress has been made under Administrator John Pistole, the system 
still tends to treat every passenger like a potential terrorist, 
wasting time and resources in extensive screening and monitoring 
procedures. The concept of risk-based security transcends presidential 
administrations, yet we continue to slow the agency's evolution towards 
this goal.
    Instead of applying the same security measures to all situations 
and individuals regardless of how likely they are to pose a threat, a 
risk-based approach would take advantage of intelligence and 
information to allocate security resources where they are most likely 
to be needed. These measures would increase the effectiveness of our 
security efforts and decrease the costs associated with screening 
millions of individuals every day.
    Information and intelligence sharing are keys to a successful risk-
based security model. By its very nature, risk-based security relies on 
having access to timely and accurate information. Obviously, 
significant progress has been made in improving information sharing at 
the Federal level. However, for DHS and TSA to build a truly effective 
information-sharing regime and meet their unique goals, they will have 
to enhance sharing with State and local entities as well as the private 
sector. State and local law enforcement represent the first line of 
defense against terrorism and private industry owns 85% of all critical 
infrastructure, yet we have not perfected systems for sharing with 
these actors. Further, given the international nature of the aviation 
system, we must improve our efforts to share with our international 
partners through such efforts as shared Passenger Name Records (PNR). 
This type of sharing with multiple partners and sectors will be 
critical to implementing a risk-based model.
    The TSA is already moving towards risk-based security. One way they 
are doing this is through the PreCheck program, in which low-risk 
passengers can bypass certain security measures. PreCheck was initially 
implemented last fall and currently operates at 16 airports Nation-
wide, with plans to expand to 19 more airports by the end of 2012. This 
program has been implemented in phases, with only certain airlines and 
airports participating. This has allowed TSA to closely monitor the 
impact of the program. Yet in order to fully realize the benefit of 
PreCheck, the program should be expanded to include a greater number of 
trusted travelers from a variety of sources. Further, trusted travelers 
enrolled in the program should be provided an ID number that would be 
recognized across all airlines and airports, greatly increasing 
PreCheck's interoperability.
    Given the great potential risk-based models hold for security, 
these efforts should not only be supported by Congress and the public, 
but also expanded, so that risk-based security models are the norm 
rather than the exception. Yet we must remember that these efforts do 
involve an inherent degree of risk; in implementing them, we must be 
willing to accept not only the risks, but the potential consequences. 
We cannot simply revert to a broken ``zero-failure'' model if and when 
there is another terrorist incident. For aviation security to evolve, 
Congress, the public, and TSA must commit themselves to making a risk-
based model work.
                         science and technology
    In today's atmosphere of budget cuts and fiscal austerity, 
technology represents another means to increase efficiency without 
compromising security. In the long run, investment in new technologies 
will enhance TSA's threat detection abilities while at the same time 
potentially reducing other costs.
    To this end, it is essential that the Department of Homeland 
Security's (DHS) Science and Technology (S&T) budget be maintained. 
While there may be immense short-term pressure to cut S&T funding, 
Congress must think of the long-term savings in efficiency that 
technology represents. Research and development allows technologies to 
be designed to specifically target the threat, instead of having to 
alter other technologies to serve the intended purpose. The rapid 
creation of the TSA led to the agency using existing technologies that 
needed to be modified or creatively manipulated to serve the required 
purposes. Now, the S&T is at the point where it is able to develop 
technologies that specifically fit the form and function of the TSA. 
For instance, S&T recently created a technology for detecting trace 
amounts of explosives and drugs on checked luggage that is ten times 
more powerful than existing systems, yet still costs the same. If S&T 
funds are slashed, such advances as well as the security and efficiency 
increases they bring with them will be difficult to realize.
    In order to promote the development of products specifically for 
homeland security applications, it will also be necessary to 
incentivize private companies to invest in these technologies. DHS must 
be encouraged to develop partnerships with industry. An important step 
would be for DHS to issue clear requirements for technology 
acquisition, which will help to incentivize private companies. Further, 
multi-year funding guidance from TSA would decrease uncertainty for 
technology vendors, allowing them to invest in technologies that may 
require multiple years to develop. It would also be worthwhile to 
investigate the feasibility of a venture capital firm that would 
identify and invest in companies developing cutting-edge technologies 
applicable to homeland security. In developing such a model, TSA could 
look to the relationship between In-Q-tel and the intelligence 
community. Such efforts will be essential to developing a mature 
homeland security industrial base, realizing long-term savings, and 
increasing security.
                        strategic communications
    Yet even if technologies are improved upon, TSA will continue to 
face challenges with its public image. Few, if any, U.S. Government 
agencies interact on such a consistent, personal level with the general 
public as does TSA. It will be difficult for TSA to evolve without the 
support of the public, yet this support is unlikely if the TSA 
continues to be viewed as an adversary, rather than as a public good 
like police or firefighters. TSA must enhance its image and communicate 
with the public in a way that builds mutual trust.
    While TSA has already begun implementing image-building and 
communications initiatives such as ``TSA Cares'', it will be impossible 
for TSA to improve its image and public relations significantly if 
Government officials continue to use the agency as a source of 
political rhetoric. Although airport security measures are tedious to 
all, their goal is to keep Americans safe. Thus, TSA policies should be 
framed as serving the public good, instead of unnecessary, cumbersome 
red tape. Transportation security and the TSA need to be de-politicized 
if they are to evolve, yet this will not occur if short-term political 
points are consistently scored at the agency's expense. The TSA can 
grow into a respected, efficient, and effective institution, but only 
if supported, rather than undercut.
    TSA also needs to communicate with and utilize travelers to a 
greater degree. Despite the perceived hassle of security measures, it 
is in everyone's best interest to promote aviation security. TSA should 
explore programs such as DHS' ``If You See Something, Say Something'' 
campaign, which capitalizes on the vigilance of the travelers 
themselves. Furthermore, passengers have shown themselves to be 
proactive about their safety. For example, Dutch filmmaker Jasper 
Schuringa was the first to subdue Umar Farouk Abdulmutallab when he 
tried to light an explosive in his underwear. By educating travelers on 
what they can do for aviation safety, and then trusting them to do 
this, TSA can take advantage of thousands of watchful eyes.
    Finally, TSA would benefit immensely from a greater degree of 
leadership continuity. TSA's challenging, and unfortunately highly 
politicalized, mission demands leadership that transcends the political 
cycle. The administrator position should be afforded a greater degree 
of continuity, perhaps treating it similar to the director of the 
Federal Bureau of Investigation, which has a set 10-year term. Since 
its inception TSA has had five administrators, with some serving less 
than a year. No matter their skills as leaders or managers, no one can 
be expected to implement a charter such as TSA's in short, 1- or 2-year 
bursts. In contrast, since 9/11 the FBI has had one director, which has 
allowed the organization to alter its operations and structures to meet 
the evolving threat and to usher in some of the agency's most 
significant bureaucratic changes in its history. If the leadership of 
the TSA were kept in place for longer--spanning Presidential 
administrations--it would allow TSA to escape politics and the 
political cycle, increasing their ability to institute long-term plans 
and evolve into the organization we need it to be.
                               conclusion
    In conclusion, there are a variety of means by which we can meet 
the challenges transportation security, particularly aviation, faces. 
These include the implementation of risk-based security models, an 
emphasis on science and technology, and improvements in strategic 
communications.
    However, I want to recognize that TSA is already on the right path 
toward finding innovative ways to meet these challenges and 
Administrator Pistole should be commended for his leadership. Many of 
the suggestions I have made today are already being considered or 
implemented by the TSA. Though the TSA is still working to address the 
challenges born out of its creation, it does not need increased 
regulation. Instead, to continue to innovate and evolve the TSA needs 
the support of Congress and the American people. Thank you.

    Mr. Rogers. Thank you, Mr. Nelson. That was some very 
intriguing thoughts.
    Our next witness, Mr. Tom Blank, currently serves as 
executive vice president at the Gephardt group.
    In 2006, Mr. Blank served as the TSA as the acting deputy 
administrator where he oversaw relationship-building with 
aviation stakeholders during a series of major changes 
following 9/11.
    Mr. Blank created the first ever Office of Transportation 
Security Policy and was later tasked as TSA's chief support 
systems officer in charge of technology development, Nation-
wide deployment of Federal screener force, and the agency-wide 
reform in its acquisition function.
    The Chairman now recognizes Mr. Blank for 5 minutes to 
summarize his testimony.

  STATEMENT OF TOM BLANK, EXECUTIVE VICE PRESIDENT, GEPHARDT 
                       GOVERNMENT AFFAIRS

    Mr. Blank. Chairman Rogers and Members of the subcommittee, 
thank you for the invitation to appear here today.
    As a former TSA senior executive, I can attest to the 
commitment of the agency's men and women who do their utmost 
24/7 to keep Americans secure and all modes of transportation 
functions freely.
    As this subcommittee weighs the future of TSA, it is 
important that you consider steps that will support TSA in 
enhancing its consistency, credibility, and currency.
    First, consistency in management, organization, and 
leadership.
    In the years following TSA's creation with the signing of 
the Aviation and Transportation Security Act in November 2001, 
the Congress has acted to change a range of the act's original 
provisions.
    ATSA created the post of under secretary for transportation 
security as the third-ranking position in the U.S. Department 
of Transportation hierarchy and accorded the post the same 
executive rank as the DOT Deputy Secretary. Most importantly, 
ATSA created the post with a stated term of 5 years.
    Over the intervening years, the 5-year term provision was 
removed and the executive rank of the TSA administrator was 
reduced.
    I submit that, at the least, the 5-year term stipulation be 
reinstituted because it will help assure leadership consistency 
and non-partisanship over the long term. It will help make 
management of the agency more predictable and permit the 
overall organization to focus more intently on mission 
execution.
    Since TSA was created nearly 11 years ago, there have been 
six TSA administrators, including one long-term acting leader, 
and the same number of deputy administrators, including my 
brief acting tenure and the most current appointee who just 
assumed his post.
    With changes at the top usually come a re-wiring of the 
organization chart and a reallocation of responsibilities. From 
consistency in leadership would come broad policy and 
operational buy-in by Government and private-sector 
stakeholders. Such buy-in from stakeholders remains critical to 
TSA's homeland security mission success. This 5-year term 
provision mirrors that for the FAA administrator for many of 
the same reasons. Second, credibility by taking steps to reduce 
adverse aviation passenger experiences at the checkpoint. A 
potential path to achieving this credibility is the empowerment 
of the TSA's workforce of checkpoint supervisors to intervene 
in screening processes and to diffuse those situations that 
often intrigue the news media.
    TSA does have more than 3,000 management personnel 
designated as checkpoint supervisors present at most 
checkpoints in the Nation's largest airports. These personnel 
should be authorized to intervene in ``special situations'' 
involving unnecessary scrutiny of children and elderly travel 
and elderly travelers and to pass them through.
    In a recent appearance before this subcommittee, TSA 
Administrator Pistole acknowledged that this approach had merit 
and noted that the agency is moving to provide the necessary 
training to the 3,000 checkpoint supervisors.
    Third, currency, by having the most advanced security 
technology capability possible at all times.
    Having the most advanced security technology to help ensure 
the agency stays ahead of the terrorist threat will require the 
Congress to provide TSA with innovative financing authority and 
to facilitate the use of independent third-party testing to 
more effectively and cost-efficiently bring technologies to use 
by the agency.
    The subcommittee should give due consideration to the 
concept of a voluntary multi-billion dollar tax credit bond 
program under which airports would issue debt to pay for 
security equipment and the necessary infrastructure to support 
TSA operations.
    I would suggest that this is spending that is not avoidable 
and such an approach may support efficiency and more common-
sense planning. It is also private-sector dollars what would be 
leveraged by Federal action.
    For instance, TSA is required by ATSA to screen checked 
baggage using Explosives Detection Systems; an advanced X-ray 
technology. Across the system this equipment is now headed 
toward the end of its useful life and will soon have to be 
replaced. Despite TSA's best efforts, that will be a budget-
buster if it all needs replaced within a short time frame which 
could easily happen.
    The subcommittee has heard testimony about TSA's Risk-Based 
Screening program. RBS is supported by new and emerging 
technology. The full benefits of RBS will not be realized as 
swiftly as everyone might like if the TSA is left to advocate 
year over year for budget resources to support it.
    Once again, I greatly appreciate the opportunity to share 
my thoughts about future changes that will support TSA becoming 
widely known for consistency, creditability, and currency.
    I would be pleased to answer any questions.
    [The prepared statement of Mr. Blank follows:]
                    Prepared Statement of Tom Blank
                             July 10, 2012
    Good afternoon. First, let me extend my appreciation to you, 
Chairman Rogers, and to Ranking Member Jackson Lee for the invitation 
to appear before you today. The work the subcommittee is doing by 
conducting a series of hearings on critical issues confronting the U.S. 
Transportation Security Administration (TSA) will support improvements 
in efficient and effective operations and an enhanced understanding 
among all stakeholders of the significant challenges the TSA confronts 
each and every day. As a former TSA senior executive, I can attest to 
the commitment of the agency's men and women who do their utmost 24/7 
to keep Americans secure and all modes of transportation functioning 
freely. To serve at TSA following the horrific attacks of 9/11/01 
remains, for me, a high honor, and my testimony today is delivered in 
the spirit of a continuing devotion to TSA's mission and to those who 
serve there.
    As this subcommittee weighs the future of TSA, it is important that 
you consider steps that will support TSA in enhancing its consistency, 
credibility, and currency. I do not mean to suggest that TSA lacks 
these attributes, but there are changes that would help the agency 
operate more efficiently and effectively, reduce criticism of the TSA, 
and allow the agency to be recognized for the invaluable contribution 
to homeland security that it makes every day.
    First, consistency--in management, organization, and leadership.
    In the years following TSA's creation with the signing of the 
Aviation and Transportation Security Act (ATSA) on November 18, 2001, 
the Congress has acted to change a range of the Act's original 
provisions. It is now time to review certain of these original 
provisions and ask whether or not they should be restored going 
forward.
    ATSA created the post of under secretary for transportation 
security as the third-ranking position in the United States. Department 
of Transportation hierarchy and accorded the post the same executive 
rank as the DOT deputy secretary. Most importantly, ATSA created the 
post with a stated term of 5 years.
    Over the intervening years, the 5-year term provision was removed 
and the executive rank of the TSA administrator was reduced. This was 
done following the creation of the Department of Homeland Security so 
that TSA would fit into an organizational structure that has since been 
abolished.
    I submit that, at the least, the 5-year term stipulation be 
reinstituted because it will help assure leadership consistency and 
non-partisanship over the long term. It will help make management of 
the agency more predictable and permit the overall organization to 
focus more intently on mission execution and efficient use of 
resources.
    Since TSA was created nearly 11 years ago, there have been six TSA 
administrators, including one long-term acting leader, and the same 
number of deputy administrators, including my brief acting tenure and 
the most current appointee who just assumed his post. The turnover in 
other TSA senior leadership positions is much the same story, often 
driven by the changes at the top.
    With changes at the top usually come a re-wiring of the 
organization chart and a reallocation of responsibilities.
    I suggest the ATSA provision for a 5-year term for the TSA 
administrator was intended to support long-term consistency in 
leadership, management, and to assure organizational stability. From 
consistency in leadership would come broad policy and operational buy-
in by Government and private-sector stakeholders. Such buy-in from 
stakeholders remains critical to TSA's homeland security mission 
success. This 5-year term provision mirrors that for the FAA 
administrator for many of the same reasons.
    Related to the provision for a 5-year term is the original 
executive rank of the TSA administrator. If the post retained the same 
rank ATSA accorded it, the TSA administrator would be an official of 
near-equal status as the DHS deputy secretary. It may seem like a small 
matter--the designation of a Federal post on the OPM Executive 
Schedule. But the complexity and global visibility of the TSA 
administrator position is such that, in fact, rank does matter in 
dealing with agency counterparts across the Executive Branch and in 
working with international partners. ATSA accorded a very senior rank 
to the TSA administrator position in recognition that the agency would 
require the ability to be flexible, swift, and responsive without 
having to engage in cumbersome departmental or intergovernmental 
bureaucratic deliberations over certain policy and resource allocation 
matters.
    Second, credibility--by taking steps to reduce adverse aviation 
passenger experiences at the checkpoint.
    If TSA can significantly reduce adverse experiences, the agency's 
overall credibility as a bulwark of post-9/11 homeland security will go 
up markedly. A potential path to achieving this credibility is the 
empowerment of the TSA's workforce of checkpoint supervisors to 
intervene in screening processes and to diffuse those situations that 
often intrigue the news media for days on end when they represent only 
a rare exception to the experience of 2 million passengers each day. To 
be sure, TSA cannot permit individual line officers to set aside 
security procedures as they see fit. However, TSA does have more than 
3,000 management personnel designated as checkpoint supervisors present 
at most checkpoints in the Nation's largest airports. These personnel 
should be authorized to intervene in ``special situations'' involving 
unnecessary scrutiny of children and elderly travelers and to pass them 
through.
    While TSA is making changes to procedures aimed at reducing adverse 
passenger experiences by procedural adjustments, the experienced front-
line checkpoint supervisors can get TSA out of the headlines 
expeditiously thus elevating overall agency credibility. In a recent 
appearance before this subcommittee, TSA Administrator Pistole 
acknowledged that this approach had merit and noted that the agency is 
moving to provide the necessary training to the 3,000 checkpoint 
supervisors. This should occur on an expedited basis.
    Third, currency--by having the most advanced security technology 
capability possible at all times.
    Having the most advanced security technology to help ensure the 
agency stays ahead of the terrorist threat will require the Congress to 
provide TSA with innovative financing authority and to facilitate the 
use of independent third-party testing to more effectively and cost-
efficiently bring technologies to use by the agency.
    Innovative financing authority has been discussed and the 
subcommittee has heard testimony on this topic previously. Further, the 
Essential Technology Taskforce Report presented to Secretary Chertoff 
in 2008 outlined several approaches. I would suggest that the 
subcommittee give due consideration to the concept of a voluntary 
multi-billion dollar tax credit bond program under which airports would 
issue debt to pay for security equipment and the necessary 
infrastructure to support TSA operations.
    This approach has not gained strong support in these lean budget 
times given that the tax credits would show up as an increase in 
spending under Congressional Budget Office rules. However, I would 
suggest that this is spending that is not avoidable and such an 
approach may support efficiency and more common-sense planning. It is 
also private-sector dollars what would be leveraged by Federal action.
    For instance, TSA is required by ATSA to screen checked baggage 
using Explosives Detection Systems; an advanced X-ray technology. 
Across the system this equipment is now headed toward the end of its 
useful life and will soon have to be replaced. Despite TSA's best 
efforts, that will be a budget-buster if it all needs replaced within a 
short time frame which could easily happen. As it is, the agency is not 
moving toward replacement in the most efficient way since long-term 
infrastructure approaches, in many instances, are being put on hold.
    Further, those of us who have been engaged in the budgeting process 
for a Federal agency know that winning approval for capital equipment 
expenditures is never easy outside of an emergency. If TSA had 
innovative financing authority the agency could develop a strategy to 
keep its technology completely current.
    The same holds true for passenger checkpoint technologies as the 
current generation of X-ray and personnel scanners ages and better, 
faster versions become available.
    Concerning independent, third-party testing of security 
technologies, TSA can better leverage its limited resources to more 
quickly facilitate the development and testing of technologies to TSA 
standards in preparation for final certification and deployment by the 
agency.
    With third-party testing, vendors can proceed more expeditiously to 
develop and test the technologies that TSA requires; better leveraging 
their limited resources and expediting development. TSA benefits from 
more rapid and efficient development of technologies and enhances its 
credibility by being able to point to the independent testing.
    From a budget standpoint, again recognizing the continued budget 
constraints our Government must operate under and the need to show the 
taxpaying public we are providing them with their ``money's worth,'' 
independent, third-party testing should depend primarily on 
reallocation of existing resources, and in some case will rely on 
private or other-than-Government funding.
    The subcommittee has heard testimony about TSA's Risk-Based 
Screening program. RBS is supported by new and emerging technology. The 
full benefits of RBS will not be realized as swiftly as everyone might 
like if the TSA is left to advocate year over year for budget resources 
to support it. In addition, with innovative financing authority and 
independent, third-party testing will come the best possible leverage 
of dollars to be invested in the technology required to keep our 
security regime robust and ahead of the terrorist threat.
    So, assurance that TSA's full suite of security technologies is 
maintained as current is the third future need I suggest the 
subcommittee consider.
    Chairman Rogers and Ranking Member Jackson Lee, once again, I 
greatly appreciate the opportunity to share my thoughts about future 
changes that will support TSA becoming widely known for consistency, 
credibility, and currency.
    I would be pleased to answer any questions the Chairman, Ranking 
Member or other Members of the subcommittee may have.

    Mr. Rogers. Thank you, Mr. Blank.
    Which equipment did you talk about being at the end of its 
life expectancy and would be a budget-buster?
    Mr. Blank. The baggage screening equipment----
    Mr. Rogers. Okay.
    Mr. Blank [continuing]. And explosive detection systems.
    Mr. Rogers. All right.
    Now I know that a couple of major airports I recently 
toured, they are in the process of replacing that now. Are you 
saying that there is a problem across the spectrum of airports?
    Mr. Blank. It is not across the spectrum. Some of the 
largest airports are being taken care of. TSA is not completely 
without a plan.
    But when we look at 450 airports----
    Mr. Rogers. Okay.
    Mr. Blank. We don't even have EDS at all 450 airports----
    Mr. Rogers. Okay.
    Mr. Blank [continuing]. Today.
    Mr. Rogers. All right. You shook me up there for a minute.
    All right. We have saved the best for last. No pressure. 
Our final witness is Ms. Colby Alonso, who currently serves as 
a flight attendant with US Airways and who will be testifying 
on behalf of the Association of Flight Attendants and 
Communication Workers of America.
    The AFA represents nearly 60,000 flight attendants employed 
by 21 different airlines. It is the world's largest flight 
attendant union.
    Ms. Alonso also has 16 years of experience as a flight 
attendant. In May, Ms. Alonso was working on US Airways Flight 
787 from Paris to Charlotte when she responded to a woman's 
claim that she had a device implanted inside her. Thankfully, 
the claim turned out to be false.
    The Chairman now recognizes Ms. Alonso for 5 minutes to 
summarize her opening statement.

  STATEMENT OF COLBY ALONSO, ASSOCIATION OF FLIGHT ATTENDANTS

    Ms. Alonso. Thank you, Chairman Rogers, and Members of the 
committee for allowing me to speak on our perspectives 
regarding the future of transportation security.
    As you said, I am a member of the Association of Flight 
Attendants, which represents 60,000 flight attendants at 21 
different airlines and is the world's largest flight attendant 
union.
    As FAA-certified safety professionals, flight attendants 
are required to be on-board commercial aircraft to fight fires, 
to provide first aid, to handle emergency situations, and to 
command evacuations when necessary.
    Our responsibilities for ensuring the security of 
passengers on the aircraft and protecting the flight deck and 
cabin from an attack are vast and make us an integral part of 
security.
    As a 16-year flight attendant, I take pride in my role as 
an on-board aviation safety and security professional. I 
appreciate the opportunity to recount my experience from May 
22, 2012, as a front-line first responder.
    On that day I was working as the French translator on US 
Airways Flight 787 from Paris to Charlotte, North Carolina. 
Following our initial in-flight service, a female passenger 
called me to her seat and handed me a note written in French 
for the captain.
    Since the captain did not speak French, I asked the 
passenger if I could read it. The note stated she had been 
surgically implanted with a device that was out of her control.
    I reconfirmed my understanding of the note was correct. I 
asked her if she thought the device would solely harm her or if 
it could possibly harm others or the aircraft.
    She didn't know and could not confirm it wouldn't.
    I proceeded to the forward galley with the note, her 
boarding pass, and passport. I briefly explained the situation 
to the cabin service director then entered the cockpit to brief 
the captain.
    The captain suggested I make an announcement seeking 
medical assistance for a passenger in need. It took two 
announcements before any doctors responded. I requested their 
help and discretion.
    We escorted the female passenger to the back galley and 
requested her permission for the doctors to examine her. Their 
joint assessment was that there was nothing visible or tangible 
to indicate she posed any threat.
    I relayed this information to the captain. It was decided 
that out of caution we would divert to Bangor, Maine. 
Instructions were given to restrain the passenger, which she 
willingly allowed.
    Once on the ground in Bangor, Federal officers came on 
board and removed the passenger, after which the captain 
explained the real circumstances of our diversion to the 
passengers.
    The FBI then came on and took my statement, the original 
note, and my rough translation.
    Our flight eventually continued on to Charlotte. 
Fortunately, the threat we encountered did not end tragically 
and was addressed the best we could, given our limited 
resources and the operational environment.
    I am required to attend recurrent training at my airline 
yearly in order to remain qualified. This training includes a 
security module that gave me a foundation to respond to the 
threat I encountered that day.
    But I also believe there are many improvements that should 
be made in order to be better prepared in the future.
    When I was hired, my initial security training was based on 
a 1970s hijacking scenario of a dissident who wanted to go to 
Cuba. The old strategy emphasized a negotiated resolution.
    Today's security training requirements, known as Common 
Strategy II, were created after the events of 2001 to respond 
to the ever-present aggressive threat defensively.
    It has been more than 10 years since the change to Common 
Strategy II. It is time for an independent panel to review 
flight attendant security training.
    Otherwise, we run the risk of again stagnating our approach 
to security training, as we did in the years prior to 9/11. 
Flight attendant self-defense training is essential to a 
comprehensive counterterrorism strategy.
    The TSA offers a voluntary 1-day crewmember self-defense 
training course. I took the course on a day off in Charlotte on 
my own time and at my own expense.
    AFA has long called for making the concepts of this 
voluntary self-defense training mandatory. Flight attendants 
are not asking to become martial arts experts but our level of 
preparedness is inconsistent.
    Additionally, AFA has also pressed for alternative 
screening for flight attendants. As a flight attendant, I am 
subject to the same level of screening and background checks as 
pilots, with the exception of those pilots participating in the 
FFDO program.
    Our advocacy on alternative screening methods is all the 
more important and relevant as TSA moves to implement risk-
based passenger security screening.
    Alternative screening initiatives for frequent travelers as 
well as for active-duty service members should not be further 
expanded while the inclusion of flight attendants into the 
known crewmember program still has no concrete dates or 
milestones set.
    Lastly, regarding Flight 787, the only way for me to relay 
information from the doctors to our ground support accurately 
was through entering the flight deck and using the pilot 
headset.
    AFA supports the development of discreet, secure, hands-
free wireless communication systems. The hands-free concept 
will allow crewmembers under general emergency and security 
threat conditions the ability to communicate from anywhere in 
the aircraft at any time, under any circumstance.
    AFA recommends a robust, layered security approach that 
includes intensive self-defense modules into crewmember 
security training, a risk-based approach to security screening 
that incorporates flight attendants into known crewmember, and 
the institution of discreet, portable wireless communication 
devices for improved and safer two-way communications.
    Chairman Rogers and Ranking Member Jackson Lee, thank you 
for allowing me to talk about being a first responder and the 
last line of defense in the aircraft cabin.
    I will be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Alonso follows:]
                   Prepared Statement of Colby Alonso
                             July 10, 2012
    Thank you Chairman Rogers and Ranking Member Jackson Lee and 
Members of the committee for holding this hearing and allowing me to 
speak on our perspectives on the future of transportation security. My 
name is Colby Alonso and I am a 16-year flight attendant and a member 
of the Association of Flight Attendants--Communication Workers of 
America (AFA). AFA represents nearly 60,000 flight attendants at 21 
different airlines and is the world's largest flight attendant union. 
We appreciate having the opportunity to testify at today's hearing on 
``Challenging the Status Quo at TSA: Perspectives on the Future of 
Transportation Security.''
    A flight attendant's duty as a first responder in the aircraft 
cabin is to ensure the safety, health, and security of passengers. We 
receive training in fire fighting, first aid, aircraft evacuation, and 
emergency procedures. Following the 9/11 attacks, flight attendants 
have been assigned increased responsibilities for ensuring the security 
of passengers on the aircraft and for protecting the flight deck and 
cabin from an attack.
    This key role in security gives flight attendants an important 
perspective on the roles and responsibilities of the Transportation 
Security Administration (TSA) and other agencies that regulate U.S. 
homeland security. We are pleased to have an opportunity today to share 
AFA's recommendations on some improvements that can be made to the U.S. 
aviation security and to express our continued strong support for a 
Federalized TSA workforce, expedited screening for all airline 
crewmembers, self-defense training for flight attendants, and to 
propose the acquisition and deployment of equipment that will assist in 
responding to emerging security threats.
    I take pride in my role as an on-board aviation safety and security 
professional. I appreciate the opportunity to share with you my 
experience of May 22, 2012 as a front-line first responder. I was 
working as the French Language of Destination/Origin (LOD/O) translator 
on US Airways flight 787 from Paris, France to Charlotte, North 
Carolina.
    As the LOD/O I was at the boarding door during the passenger 
boarding process, during which time I noticed nothing out of the 
ordinary. Our flight boarded and departed as normal. However, following 
our initial in-flight service, things began to change. A female 
passenger called me to her seat and handed me a note, written in 
French, and asked me to deliver it to the Captain.
    Since the Captain did not speak French I asked her if I could read 
it. She said yes. The summary of statements from the note were as 
follows: She was coming to the United States to ask for assistance in 
saving her life. The note claimed said she had been used as a guinea 
pig by doctors for the past 10 years, and that she had undergone 
surgery against her will. She believed that she had been surgically 
implanted with a device that was out of her control. She said she was 
afraid to return to France and afraid for her safety because of things 
she had written.
    After I had read the letter and reviewed the details with her, I 
reconfirmed that my translation was a reflection of her thoughts. I 
asked her if she thought the device would only harm her or if it could 
harm others or the aircraft. She apologized and appeared to be 
remorseful and scared and said she didn't know and could not confirm it 
wouldn't.
    I went to the forward galley with the note and briefly explained to 
the ``A'' flight attendant the circumstances of the situation and then 
went into the cockpit to brief the Captain. I had taken a copy of her 
writings, boarding pass, and passport with me.
    The captain's recommendation was to make an announcement requesting 
doctors on board because a passenger needed medical care. It took two 
announcements before one person in coach and one in first class rang 
their call buttons. I asked them to come to the forward galley and 
explained the situation quietly to them. I requested their help and 
discretion. I asked the female passenger to come to the back galley. 
She did and I interpreted for the doctors asking her permission to 
examine her. She agreed and showed them multiple scars where she 
believed incisions were made. They palpated those areas looking for 
protrusions or abnormalities.
    The doctors then gave me their thoughts. They both agreed that 
given her weight and build they would be able to see and feel if 
something was implanted. They also believed the scars looked more like 
ones resulting from an accident and not from a recent surgery. Their 
joint assessment was that there was nothing visible or tangible to 
indicate she posed any threat. I relayed this information to the 
Captain.
    It was decided that out of caution we would divert to Bangor, 
Maine. At the Captain's request I asked the passenger if she would come 
to the back of the aircraft with me again and she agreed. We escorted 
her and her belongings to the rear of the aircraft. I was given 
instructions to restrain the passenger; which she willingly allowed. At 
the same time we had someone sit in the same row with her on the 
inboard seat to block her egress to the aisle.
    Once on the ground in Bangor immigration/customs officers came on 
and removed her via the aft left aircraft stairs. They took all her 
belongings with them. Once she was removed, the captain came on the PA 
system and explained the real circumstances to the passengers. The FBI 
came on and took my statement, the original note, and my rough 
translation.
    Our flight eventually continued on to Charlotte where our crew was 
met by our airline base managers, chief pilot, and corporate security 
where we were debriefed and gave our statements. Representatives from 
AFA's Employee Assistance Program (EAP) were also available to support 
us as needed. We addressed the situation that day the best we could 
given our limited resources in the operational environment. 
Fortunately, the threat we encountered did not involve a terrorist; if 
it had it would have probably ended tragically.
    Shortly after the 9/11 attacks AFA called upon Congress to 
implement many changes, some of which we continue to work toward today. 
I would now like to elaborate on several of AFA's security 
recommendations that I believe will help our industry continue to move 
forward and remain vigilant in pursuit of a safer and more secure 
aviation industry.
    Every 12 months I am required to attend ``recurrent'' training at 
my airline to remain qualified to perform my safety, health, and 
security duties on-board the aircraft. Part of that recurrent training 
includes a security module. I believe my training gave me sufficient 
resources to respond to the limited, fortunately non-serious threat 
encountered that day. I should note that my carrier's training program 
meets today's regulatory requirements.
    The current ``Common Strategy II'' training requirements were 
created after the events of 2001 to replace the outdated 1970's 
scenario of a dissident hijacker who wanted to go to Cuba. The old 
strategy emphasized a negotiated resolution. Flight attendants were 
unprepared to deal with the September 11 attacks, primarily because 
flight attendant training had stagnated. AFA had been and continues to 
be a consistent advocate for improving flight attendant training. AFA 
participated in the writing of the Common Strategy II guidance to 
update and improve flight attendant security training requirements in 
response to the 9/11 threat. The goal was to ensure crewmembers had the 
information, skills, and tools necessary to respond to a new form of 
security threat.
    Now more than 10 years since the inception of Common Strategy II, 
AFA recommends that flight attendant security training be reviewed and 
updated to ensure that training programs and procedures ensure 
appropriate, efficient, and effective responses to current and emerging 
threats. Otherwise, we run the risk of again stagnating with our 
approach to security training as we did in the years before 
9/11. We need a robust system that can counter current and emerging 
threats, and ensure that we have the best possible security system in 
place. AFA's recommendations for an efficient, robust, layered security 
approach incorporates intensive modules on self-defense and situational 
awareness into crewmember security training, implements a Known 
Crewmember system as part of a risk-basked approach to security 
screening, and utilizes discreet, portable wireless communication 
devices for two-way communications between cabin and flight deck 
personnel.
    Flight attendant self-defense training is an essential component of 
a comprehensive counterterrorism strategy. Today basic security 
training provided by air carriers includes actual hands-on self-defense 
training that varies from 5 minutes to 30 minutes. This training module 
is developed and provided by the air carrier themselves, and is in 
compliance with existing requirements.
    Despite repeated requests by AFA and others for updated training 
that includes basic self-defense maneuvers to allow flight attendants 
to defend themselves against a terrorist attack, we still do not 
receive mandatory training about how to effectively recognize suspect 
terrorist behavior and how to defend ourselves and others against 
terrorist attacks aboard the aircraft. We are not asking for flight 
attendants to be certified black belt martial arts experts. We are 
asking for flight attendants to be provided with the appropriate and 
effective training that is required to perform our duties as first 
responders and the last line of defense for the flight deck.
    There is alternate self-defense training developed by TSA called 
Crew Member Self-Defense Training (CMSDT). This is a voluntary 1-day 
(6- to 8-hour) course conducted throughout the year at various 
locations around the country such as community colleges and focuses on 
hands-on self-defense training. I voluntarily took the course. It was 
done on my day off in Charlotte, NC. I was not paid nor did I receive 
any financial assistance to attend. I thought the training was a good 
start. Every year at recurrent training when our instructors ask if 
anyone has taken this class I enthusiastically raise my hand. AFA has 
long called for making the concepts of this voluntary self-defense 
training mandatory.
    For more than 5 years AFA has also pressed for alternative 
screening for Flight Attendants that accurately reflects our 
credentials as pre-screened safety professionals. Our advocacy on 
alternative screening methods is all the more important and relevant as 
the TSA moves to implement risk-based passenger security screening.
    Flight attendants are subject to the same level of screening and 
background checks as pilots, with the exception of those pilots 
participating in the FFDO program. As my testimony today reflects, 
flight attendants are an integral part of the crew and the purpose of 
our jobs is to ensure in-flight safety and security. As a flight 
crewmember I have access to the cockpit and sometimes my presence in 
the cockpit is required. Unfortunately, flight attendants are still not 
included in the same alternative screening as pilots. TSA has stated 
that a similar screening process is contemplated for flight attendants, 
but concrete dates or milestones have yet to be announced.
    While TSA continues to consider when to include flight attendants 
in the Known Crewmember (KCM) Program, the agency has announced that 
pilots from additional airlines will be included, and that other 
alternative screening initiatives for frequent travelers and active-
duty service members are being developed. AFA supports risk-based 
screening initiatives designed to make the screening process more 
efficient without sacrificing security. Flight attendants should be 
recognized for the security and safety our presence ensures, and should 
therefore participate in alternative screening. To support security 
program efficiency and traveler convenience, TSA should move quickly to 
include all crewmembers in KCM.
    Flight attendants have access to the flight deck and are subject to 
the same 10-year background checks as pilots. Like pilots, we carry a 
certificate issued by the Federal Aviation Administration. We encourage 
this committee to request a report from TSA establishing milestones for 
including flight attendants in an expedited, alternate screening 
program as mandated for all crewmembers by the 9/11 Commission Act. 
Other stakeholders agree, as both ALPA and A4A have requested that the 
TSA expand the program to include flight attendants.
    We are disappointed with the slow implementation of flight 
attendants into KCM. The time is now to rectify the situation. 
Passengers are being invited to opt-in to expedited security screening 
programs simply because they log a certain number of miles on U.S. 
carriers. The Nation's certified flight attendants, serving as the last 
line of defense for commercial aviation security, surely meet the 
requirements of the Known Crewmember Program.
    Finally, since the aircraft we were flying that day was an older 
Boeing 767, the only way to communicate during the event to the 
authorities was through the flight deck headset. When I was recounting 
the information from the doctors about the exam to our ground support 
group I had to use the headset in the flight deck.
    AFA has supported the development of discreet, secure, hands-free, 
wireless communications systems, as authorized by the Homeland Security 
Act of 2002, as one means to prevent a potentially catastrophic 
security breach by terrorists. The device will allow all crewmembers 
the ability to communicate from anywhere in the aircraft at any time 
under any circumstance. Each personal device must have capability for 
encrypted, bidirectional communications to allow plain language 
communications during crisis situations; this will ensure security and 
reduce confusion.
    Security of the system is further ensured through use of dedicated 
hardware components that are accessible only to authorized personnel 
such as crewmembers and, potentially, any active law enforcement 
officers who may have presented credentials to the crew prior to the 
flight. The hands-free concept will allow crewmembers under both 
general emergency (e.g., medical crises, emergency evacuations) and 
security threat conditions to use their hands to protect themselves, 
the cockpit, other crewmembers, passengers, and the aircraft while 
continuing to coordinate and communicate with the cockpit, the ground, 
and the rest of the crew.
    Before I end I would like to comment in support of TSA 
Administrator Pistole's efforts to limit privatization of security 
services at additional airports. AFA opposes any measures that would 
require the TSA administrator to allow more privatization. There are 
many advantages to a Federalized screening workforce. Federalized 
airport screening has been a success and has improved the security of 
air travel. A Federalized workforce provides stability throughout our 
Nation's airports by providing a multi-layered aviation security system 
from the time a passenger buys a ticket to the time a passenger exits 
the airport.
    When our members encounter discrepancies, a Federalized workforce 
allows us an efficient means to resolve discrepancies through a central 
organization versus trying to determine which screening company works 
in which airport and then searching for the appropriate contact person. 
A Federal screening workforce also ensures that TSA can adapt quickly 
to emerging threats and allows greater flexibility to transfer 
personnel from one location to another in times of emergency or crisis. 
In a study earlier this year conducted by TSA and examined by the 
Government Accountability Office (GAO), it is estimated that the cost 
to TSA of contracted screening is generally between 3 and 9 percent 
more than the cost of Federal screening. Thus, Federalized screeners 
actually cost the taxpayer less than private screeners.
    In conclusion, flight attendants are first responders and since 9/
11 we have also taken on the role as the last line of defense for 
commercial aviation security. Flight attendants routinely identify and 
manage threat levels, use our training to de-escalate threats, and 
provide direction to passengers willing to assist in restraining 
assailants. We are charged with protecting the cockpit at all costs, 
including the loss of our own lives. Security doesn't just happen; over 
100,000 flight attendants working in the U.S. aviation system ensure 
that our skies are safe.
    Chairman Rogers and Ranking Member Jackson Lee, thank you for 
allowing me to talk about being a front-line employee and the last line 
of defense in the aircraft cabin. As my testimony proves flight 
attendants are trained to perform their jobs and handle any 
circumstances that may arise. There is still much work to be done. 
There needs to be an independent panel of subject matter experts 
commissioned by Congress to evaluate the efficacy of security training 
to ensure we have the training and tools that meet the changing 
threats. And, as a safety professional, who's demonstrated that my 
duties should entitle me to the same screening process as my flight 
deck flying partners it is way past time to allow flight attendants to 
participate in the Known Crewmember screening program.
    Thank you.

    Mr. Rogers. Thank you for that and for your service.
    I will start with my set of questions for the first 5 
minutes.
    I have to admit I am impressed by the broad array of 
perspectives that we have seen in your opening statements and 
your suggestions and observations. I find it intriguing.
    I think everybody has pretty much acknowledged that TSA's 
got, at a minimum, some perception problems and more 
accurately, some organizational problems that need to be 
addressed.
    If you are familiar with what we have been doing recently 
in a recent hearing I talked about, as did our witnesses, about 
the bloated size that we are starting to see in TSA and how 
that is hindering its public image.
    One of the things that I have heard consistently from the 
public is their complaint about the large number of people who 
seem to be not doing anything and along with their frustrations 
about the process they are having to go through for security.
    In my last testimony and there is reason for this, over my 
tenure as Chairman of this committee, it has been my assessment 
that we have got about one-third of the TSA that could be 
reduced, as far as personnel size, and still do the job as 
efficiently, if not more efficiently and effectively than 
current.
    I know that is nothing magic about that. But I would like 
to frame the question this way: Would you agree that the TSA is 
bloated in its personnel structure or size, whether that bloat 
is 10 percent too many or 40 percent, somewhere within that 
spectrum would you agree that there is excess that we can 
afford to trim as a part of our effort to reform and reorganize 
the TSA? As a yes or no question, let us start with Dr. Bloom.
    Mr. Bloom. I do agree. Just two basic points about that, if 
I could?
    Mr. Rogers. Well, I want to come back to that.
    Mr. Bloom. Okay.
    Mr. Rogers. I will. I promise.
    But Mr. Poole.
    Mr. Poole. I agree certainly, as far as the screening 
workforce is concerned.
    Mr. Rogers. Right. That is what I am talking about. That is 
all I am talking about.
    Mr. Nelson. ``Ozzie?''
    Mr. Nelson. No.
    Mr. Rogers. All right.
    Mr. Blank.
    Mr. Blank. I agree.
    Mr. Rogers. Yes. Ms. Alonso.
    Ms. Alonso. I would have to defer to AFA International. I 
don't have the expertise to answer that question.
    Mr. Rogers. Okay.
    Mr. Bloom, let us go back to you. I want to hear your two 
points.
    Mr. Bloom. Well, first of all, there is nothing magical 
about aviation or transportation. From a terrorist perspective, 
you have an infinite amount of targets. You are trying to 
symbolically communicate something through killing people, 
damaging things, or threatening to.
    Whether you use an airport, an aircraft, another 
transportation modality or whatever, the world is your oyster.
    Mr. Rogers. Well, I am gonna go down that pig trail with 
you in a few minutes on my next series of questions. So I would 
ask you this then and I would ask you to keep your response to 
about 10 seconds or so because my time is gonna run out.
    If you were king for a day--and I have heard of what Mr. 
Nelson and Mr. Blank have already said, but if you were king 
for a day, what is the one thing you would change immediately 
about TSA? Ten seconds.
    Mr. Bloom. I would take maybe 20 to 30 percent of the 
resources and put it into intelligence collection analysis and 
then use that to apprehend and detain and neutralize more 
adversaries of the U.S. Government.
    Mr. Rogers. Excellent.
    Mr. Poole.
    Mr. Poole. I would devolve screening responsibility to the 
airport level and remove TSA from delivering service as opposed 
to regulating,
    Mr. Rogers. Excellent.
    Mr. Nelson.
    Mr. Nelson. Make a term limit for the administrator of 5 or 
10 years.
    Mr. Rogers. That is a good idea. Mr. Blank, I think agrees 
with you on that.
    Mr. Blank. I do. I do agree. My change would be to empower 
those checkpoint supervisors to get rid of the mistakes at the 
checkpoint as much as possible.
    Mr. Rogers. Ms. Alonso.
    Oh, I am sorry. Go back to Mr. Blank. She wanted to hear 
what you said again.
    Mr. Blank. In my testimony I suggested that the checkpoint 
supervisors, 3,000 personnel at major checkpoints, be empowered 
to intervene in the screening process as necessary to avoid 
some of the problems of the treatment of elderly, young people, 
and other special populations.
    Mr. Rogers. Yes. We have had that from previous witnesses 
in previous hearings.
    Ms. Alonso.
    Ms. Alonso. I would immediately add the flight attendant 
complement to the Known Crewmember program in order to expedite 
clearance through security.
    Mr. Rogers. Great.
    Mr. Poole, this will be my last question before my time 
expires. But you made an observation that you just now restated 
again about--in your opening statement you said that you would 
like to see TSA approve a group or pool, no pun intended, of 
contractors who could do the private screening.
    That once they were approved, the airports on their own 
could then contract with anybody who was in that group of 
people. Tell me more about how that would work.
    Mr. Poole. The way that would work, it would be like all of 
the other competitive contracting that is out there at Federal, 
State, and local level. The direct party involved would choose 
among the pre-qualified set of suppliers----
    Mr. Rogers. Would the contract amount or set of parameters 
be included in that pre-approved deal?
    Mr. Poole. Depends how much responsibility is devolved but 
ideally, yes. If it was true performance contracting then the 
companies would submit proposals that might differ in price, 
differ in the procedures that they would use.
    They would have to use TSA-approved equipment, technology, 
but they could put it together in possibly different ways. They 
might also use the people in somewhat different----
    Mr. Rogers. My time has expired but I want to come back to 
that in my next set of questions. I want to pick that topic 
back up because I really think that is intriguing.
    The Chairman now recognizes the Ranking Member for her 
opening set of questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Again, 
Ms. Alonso, let me thank you for your service. You are aware of 
the legislation that I have had, I hope, trying to increase the 
training--security training of flight attendants.
    Ms. Alonso. Yes, madam.
    Ms. Jackson Lee. Do you all support that?
    Ms. Alonso. Yes, we do.
    Ms. Jackson Lee. Legislation that would make it a 
requirement because I want to thank you, and I should thank all 
the flight attendants who have voluntarily gone to training. 
But what you are suggesting is that we need to ramp up the 
training for first responders, flight attendants. Is that not 
correct?
    Ms. Alonso. That is correct.
    Ms. Jackson Lee. Would it be more helpful if that was 
required training and periodical training for flight attendants 
that the airlines would provide?
    Ms. Alonso. Absolutely. The reason there is a need for it 
is because we have to develop cognitive recognition of 
terrorist acts based on previous attempts. The current 
counterterrorism intelligence is not reinforced enough to 
maintain a basic level that is consistent across the board for 
flight attendants to address these issues.
    Ms. Jackson Lee. I think it is very important to make note 
of your intervention, even though you have already reported it 
by your statement, but what is important is that we are aware 
that this was a dangerous commentary that this particular 
passenger was saying. It generated great possibilities of 
danger, did it not?
    Ms. Alonso. Yes, madam.
    Ms. Jackson Lee. One could not rely upon whether there was 
a mental health issue. You had to take it seriously, and you 
did. Is that correct?
    Ms. Alonso. That is correct.
    Ms. Jackson Lee. Mr. Nelson, thank you. It looks as if you 
answered that the TSA is not too many. I appreciate what Mr. 
Blank said about giving supervisors authority to intervene. As 
I indicated, I welcome corrective measures.
    Tell me, Mr. Nelson, how you would handle the present 
population of TSOs in terms of a futuristic view to training, 
to duty assignment, so that we have a full complement of 
individuals on the front lines securing the homeland?
    Mr. Nelson. Thank you, Ranking Member, for that question. 
My perspective on saying no is--comes from my military 
background of trusting the person on the ground. That is 
Administrator Pistole, who I respect tremendously for his 
service in the FBI and now as the administrator. If he says 
that we need this many agents and screening officers, then I 
agree with that assessment.
    Then what it becomes is how--your question. How do you 
train them appropriately? How do you get them to interact with 
the public? What we have created is a zero-failure construct. 
We have to create a career force. After 9/11, there were not a 
bunch of, you know, DHS Homeland Security officials sitting on 
the sideline.
    We have only been creating that workforce for about 10 
years now, and we have to continue to do that. Homeland 
Security training is very different than intelligence training, 
very different than DOD training. So even though these 
individuals may be from military or law enforcement 
backgrounds, that doesn't make them necessarily a great fit for 
what they are doing with TSA.
    So we need to expand this program as far as training is 
concerned. We need to have rotations and promote by doing 
rotation assignments and things of that nature and being 
creative about how we manage our personnel. I think that they 
are moving in that direction, but that is something that is 
going to take an investment.
    Any time you take someone off the front line to go training 
or education, they are not doing their job. That is an 
investment we are going to have to make if we want that--the 
TSA to be the organization--the entity we want it to be.
    Ms. Jackson Lee. So Mr. Nelson, let me just say, 
professional development, developing a team that is 
professionally trained, using their previous experience but is 
professionally geared to the service of their responsibility, 
which in some instances is aviation.
    I have been arguing for using these officers on our mass 
transit. That is obviously more difficult, but it certainly is 
important. Is that what you are saying today, developing that 
professional team that fits into the matrix that is needed to 
secure the homeland?
    Mr. Nelson. Absolutely. Again, we look at the Homeland 
Security intelligence model as well. Just because it works at 
the CIA or works at DOD for intelligence doesn't mean it works 
at DHS. It is a very specific requirement. It requires a very 
specific background. It requires specific training. So it will 
leverage the skills that they already have, whether it be law 
enforcement, aviation, or military. But that training needs to 
be augmented for the DHS and the TSA's specific requirements. 
Absolutely.
    Ms. Jackson Lee. Dr. Bloom, why would--or Mr. Bloom, why 
would you quarrel with what I think are very insightful, 
instructive comments by Mr. Nelson? No. 1, I agree with the 
idea of term limiting the administrator. I think 10 years, I 
think 5 years would be completely undoable. But what--what 
evidence do you have that it is too large, other than to say 
that we need to make it more efficient and more professionally 
trained?
    Mr. Bloom. Well, by no means did I want to quarrel, but 
based on the public discussion we are having, in my opinion 
from a terrorist point of view with surveillance, 
reconnaissance, being able to find out the aspects of 
technology being used by Transportation Security Administration 
personnel, by finding out the typical security procedures, 
either deployed and employed, it is only a matter time 
between--before these can either be exploited or folks can go 
around them.
    I don't think terrorists are impressed by organizational 
charts, by bureaucracies, by bureaucratic cultures. I think we 
have--by studying terrorism in the last 10, 20, 30 years, they 
take what they--what is in front of them. Anything that is a 
security procedure can be exploited or gone around, whether it 
is technology or human practice.
    Ms. Jackson Lee. My time has run. Mr. Bloom, I thank you 
for that, because you have helped clarify for me your comment, 
which I think ties closely into me, my perspective and Mr. 
Nelson, and even Ms. Alonso, which is that we must constantly 
alter the thinking, training, and strategy--strategic strategy 
because terrorists are constantly altering.
    That has nothing to do with size of the organization, which 
I believe we should adhere to the administrator, in essence the 
``general.'' But it does adhere to that we have to get more 
sophisticated in not having charts and just having bureaucracy 
and leveraged individuals who have supervisor titles or other 
titles.
    But we have to focus on making this an effective machine 
against the changing world of terrorism. On that, we have no 
disagreement. But I don't think we can call that a need for 
lessening the total population of those who are in the service. 
We need to use them in a more effective manner. So I thank you 
for your instructive testimony today. I yield back, Mr. 
Chairman.
    Mr. Rogers. I thank the gentlelady. The Chairman now 
recognizes Mr. Turner from New York for any questions he may 
have.
    Mr. Turner. Thank you, Mr. Chairman. I am not sure, was it 
you, Mr. Bloom, who talked about the baggage equipment 
screening? Its life-cycle is coming near an end.
    Mr. Blank. That was me, sir.
    Mr. Turner. I am sorry. If we have to replace all of this, 
I guess most of this was done in 2002.
    Mr. Blank. December 31, 2002, was the statutory deadline 
for installing it at commercial airports.
    Mr. Turner. Okay. Just because of the arcane way we book-
keep here, we expense the entire item on the year that it is 
replaced. How big a number would this be?
    Mr. Blank. I don't have a precise number, but it would 
certainly be many billions of dollars.
    Mr. Turner. All right. Is there a mechanism for some 
flexibility in this going to third-party leasing over the life-
cycle of the equipment, or----
    Mr. Blank. During my tenure at TSA and subsequently in 
discussions with equipment manufacturers, I have never seen 
anything, nor am I aware that the private sector has anything, 
a model, that would say leasing makes sense. I advocated for 
bonding authority to airports that it would make more sense to 
do that on an airport-by-airport basis.
    Mr. Turner. But is there--are you running into Government 
regulations, or--or just bureaucratic stonewall?
    Mr. Blank. What--it is very difficult for an agency to 
effectively advocate to the Congress for capital expenditures 
on equipment. They are more effective generally in advocating 
for expanded personnel----
    Mr. Turner. How true.
    Mr. Blank [continuing]. And usually the capital 
expenditures get put off until there is a real emergency, and 
then they will come up to Capitol Hill and say, ``We have no 
choice but to do this.'' What I am advocating for is a better 
planning, more efficient, common-sense approach to how we 
invest our capital dollars.
    Mr. Turner. All right. But in view of the size of the 1-
year expenditures, and they are all terminating at about the 
same time, is there really a practical way to do this outside 
of third-party leasing?
    Mr. Blank. Well, let me--let me clarify. TSA does have a 
plan and is executing a plan bit-by-bit, year over--year over 
year. What I am questioning is, are they going to get there 
fast enough under their current plan or are we going to have 
equipment that is out there and that is just not useable before 
the rate of replacement catches up with the need?
    Mr. Turner. Thank you. I yield back.
    Mr. Rogers. I thank the gentleman. The Chairman now 
recognizes the--my friend and colleague from Minnesota, Mr. 
Cravaack, for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for your 
panel. I appreciate that. You flew the 860? You are a JSOC.
    Mr. Nelson. I was.
    Mr. Cravaack. Yes. I was at SAC-T, so--SAC LAN back then. I 
am old.
    Mr. Poole, you mentioned in your testimony that TSA has a 
built-in conflict of interest, that was a rather interesting 
statement, by both establishing security policies and then 
trying to implement those policies because self-regulation is 
inherently problematic.
    You then talk about how the TSA isn't as rigorous in 
dealing with its own performance problems as it--those that it 
actually does regulate. It is kind of like the fox guarding the 
hen house, if you will pardon the expression.
    Your proposal is to shift the performance contracting 
model. Can you give me examples of the screening performance 
measures and what it would look like as a contractor to 
implement them?
    Mr. Poole. Well, one would certainly be the kinds of 
measures that are used now when red teams go in and try to get 
material past the screening--across things that are prohibited. 
So the rate of successful interception of--of bogus material or 
dangerous material.
    Another would be cost-effectiveness measures, productivity, 
the number of passengers screened per hour in accordance with 
standards. That kind of measure I don't see anywhere being used 
today. That is the kind of measure that the House T&I Committee 
used when they compared the contract screening at San Francisco 
with the TSA screening at LAX and found enormous difference in 
the actual productivity.
    That suggests that the TSA staff are not being used 
anywhere near as efficiently as the contractors are able to do. 
So that would be another useful measure.
    Mr. Cravaack. Well right now the TSA has, what, an $8 
billion budget. How much--how much savings do you see that 
occurring if you saw that throughout the system?
    Mr. Poole. I think you could probably save 20 to 25 
percent. Given that screening is about $5 billion of the $8 
billion.
    You could probably save 20 percent at least of TSA's 
overall total budget from removing that going to the 
performance contracting.
    Mr. Cravaack. You would have a pretty large savings 
associated with that and, of course, we are also concerned 
about quality. You would not see any hits in quality 
whatsoever?
    Mr. Poole. Well the point is that the quality control would 
be built in through the threat of losing contracts. I mean if 
you can't guarantee that every contract is going to be carried 
out to the highest level that you would want. But you have the 
ability to quickly and decisively replace a failing contractor 
with another one from the prequalified list. So it builds in a 
kind of control mechanism that lets you get rid of bad apples, 
should some arise, fairly quickly.
    Mr. Cravaack. That kind of dovetails on what you also 
mentioned reforms in the Security Partnership Program moving 
away from the TSA's current practice of spelling out 
procedures, technology, and compensation.
    What changes do you anticipate producing in the current SSP 
airports--SPP, excuse me?
    Mr. Poole. Right. I have not--did not try to spell all that 
out and I think what we want to do is encourage innovation----
    Mr. Cravaack. Right.
    Mr. Poole [continuing]. And get away from the one-size-
fits-all model that there is only one best way. I don't know a 
better way to do passenger screening but, you know, given that 
I support the risk-based approach that TSA is moving toward.
    But if you give contractors outcome measures and stress 
more competition, we may find some methods that are more--that 
combine people and technology in ways that lead to a more 
productive system and that is--obviously we want a system that 
leads to that.
    Mr. Cravaack. What do you think holds airports back from 
joining the SPP?
    Mr. Poole. I, you know, this is only speculation, but I 
think we have created kind of a difficult situation because TSA 
is their regulator of everything. They are in effect, if they 
want to join SPP, they are having to basically kick the TSA out 
and that is a difficult thing for a high--for a very visible 
airport to do. It creates potential for a not very good 
relationship in the subsequent years. So we would mostly see 
small airports doing this so far.
    Mr. Cravaack. So what do you think would be an incentive to 
get airports into the SPP program?
    Mr. Poole. Well I think if the airport themselves had a 
bigger role in it, if they were able to select their own 
contractor, for example and manage the relationship, I think a 
lot more of them would be willing to take that course because 
they would see it as they would have more to gain by developing 
that relationship rather than having TSA assign someone to 
them.
    Mr. Cravaack. Yes, okay. Thank you.
    Mr. Nelson, when did you get your wings?
    Mr. Nelson. August 1990.
    Mr. Cravaack. 1990, okay, a little after me.
    My time has expired, I have more questions but I will yield 
back to the Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the Ranking Member.
    Ms. Jackson Lee. Mr. Chairman, thank you again for your 
kindness.
    Let me quickly impose some very quick questions at the 
Chairman's courtesy.
    Ms. Alonso, I think you are familiar with the Known 
Crewmember Program operated by the TSA which is receiving high 
praises by pilots and industry as a good step forward in 
implementing a risk-based screening process at our checkpoints. 
This system allows pilots to obtain expedited screening 
procedures as long as the pilots are validated to be on the job 
and in good standing.
    Can you elaborate why flight attendants or crewmembers 
could also benefit from the program and whether it should be 
extended to them and could this be accomplished without 
compromising security? Then, what protections can be integrated 
into the system in order to ensure that only working 
crewmembers in good standing can use the system?
    Ms. Alonso. Yes, thank you Ranking Member Jackson Lee. We 
are under the same security screening and 10-year background 
check and scrutiny as the pilots. We also have access to the 
cockpit and then sometimes are required to be in the cockpit 
and we are the last line of defense on the aircraft.
    For those reasons alone, we feel it should not be a breach 
of security for us to have the same clearance to go through 
another alternative screening process.
    As far as protections go, it is up to the airlines to keep 
the database current with up-to-date data and employee records 
and to require employees that are terminated or separated, for 
instance on leave, et cetera, to return their IDs in a timely 
manner and that is mandated by law.
    Ms. Jackson Lee. Just a quick question, in the last FAA 
bill, it seems that the airlines were required to give you 
training on serving alcoholic beverages. Do you think that that 
required training suggests that the idea of securing the 
airline, the idea of being the first responders in the cabin 
should also be required training?
    Ms. Alonso. Absolutely. We do feel that currently, having 
only a voluntary crewmember self-defense training added to our 
yearly additional recurrent training, which the FAA requires, 
is not sufficient; 5 to 30 minutes is what is currently in 
place for flight attendants to be prepared for security 
breaches. It is developed and provided by the carriers 
themselves and it just doesn't allow us to be prepared at the 
level that we should be.
    Ms. Jackson Lee. Well, let me just say, watching you do 
your work and seeing the doors of the cockpit open and seeing 
the only ones being able to go while we are in-flight, as 
flight attendants, I can assure you that I believe that you are 
warranted in this security and warranted in this training.
    Mr. Chairman, I am just going to ask to be put on the 
record that I hope that we can work together on a cabin 
security hearing. Ms. Alonso's experience evidences the need of 
that. So I would look forward to working with you on that, Mr. 
Chairman.
    I have one more quick question.
    Mr. Poole, in your testimony, you cite to a USA Today 
investigation in 2007 that found that TSA screeners at O'Hare 
and LAX missed three times as many hidden bomb materials as did 
privately-contracted screeners at San Francisco.
    I am sure you are aware that a 2006 DHS Office of the 
Inspector General reported that covenant aviation security 
officials at San Francisco International Airport compromised 
OIG covert security testing between August 2003 and August 
2004.
    Are you at all concerned that a private company seeking to 
maximize profits and retain a contract may work to high 
potential deficiencies such as the accompanying did within 2 
years after their contract?
    Then of course, is it not correct for many of us who 
believe that the Federal Government, who has a pure 
perspective, their service is to the American people, not to 
their pocketbooks would, in essence--and to the American 
people's pocketbooks, to be efficient but to compromise 
security is a very dangerous perspective. So why are you 
pushing complete privatization of TSA?
    Mr. Poole. Well, it is not complete privatization, Ms. 
Jackson Lee.
    What I am arguing for is performance contracting with 
strong incentives but also sanctions for poor performance and 
the threat of having contracts revoked is a very powerful 
threat a business model can't really survive if you stand a 
good chance of losing the very thing that brings in revenue.
    So that is the model. It is not total privatization in any 
sense. The TSA would still be the regulator and it may be that 
the need for sanctions should be stronger in the event of 
contractor malperformance.
    Ms. Jackson Lee. Well, let me just say that those airports 
that private contractors, I work harmoniously with them and 
certainly those are in place. But the expansion of the program, 
I think, is questionable even to the extent of having 
sanctions. But I appreciate your clarification.
    I think all of us collectively at this hearing, Mr. 
Chairman, are committed to securing the homeland and making TSA 
the most effective agency that it can be along with our flight 
crew, both our pilots and our flight attendants who are on the 
front lines of any airplane that is traveling and traveling 
both domestically and internationally.
    Let me thank you, Mr. Chairman.
    I yield back.
    Mr. Rogers. I thank the gentlelady.
    The Chairman now recognizes himself for a second series of 
questions.
    Mr. Poole, I was talking to you earlier about how this 
group of approved contractors could--could function and you 
talked about bidding based on size of airport or whatever.
    Is there another example of that outside the--obviously 
there is not one in TSA, we think it should be there. But is 
there one that you are trying to model after? Is there another 
department that does something like that?
    Mr. Poole. Well actually, in the airport screening area 
itself, Canada has entire--100 percent private-sector 
screening. There are 12--last I checked, there were 12 
certified companies in Canada that----
    Mr. Rogers. The government certifies them?
    Mr. Poole. The government certifies them and in fact it is 
an agency called CATSA which is the thing that they created in 
Canada when we created TSA following 9/11.
    CATSA certifies the companies that meet its standards.
    Mr. Rogers. Does this CATSA then go in and supervise them 
at the airports?
    Mr. Poole. That is correct. That is correct.
    Mr. Rogers. You know, one of the things we have had in a 
previous hearing about from the private sector was that at the 
airport where we already have private contractors, the number 
of TSA personnel supervising is exorbitant. I mean like 100 or 
more TSA people for a contractor.
    Do you all see that? Mr. Blank, have you seen that in any 
instances or heard any complaints or criticisms about that?
    Mr. Blank. Well, first of all, let me say that many of the 
things that we are talking about here, I believe and I think 
TSA would support would require changes in ATSA in order to be 
able to do----
    Mr. Rogers. Right, right.
    Mr. Blank [continuing]. Under, you know, from a legal 
perspective.
    But in terms in terms of supervisors, I have heard that 
criticism, but I am not aware of its accuracy that we have a--
--
    Mr. Rogers. Okay.
    Mr. Blank [continuing]. Bloat of supervisors.
    Mr. Rogers. Mr. Poole, I see you nodding in the 
affirmative.
    Mr. Poole. I wanted to say that is part of the problem is 
that the way TSA runs SPP, it is TSA that is the contract 
manager and the relationship is between TSA and the private 
company.
    In the model I am suggesting, the airport would select, 
negotiate the contract and manage the relationship, TSA would 
regulate the overall airport security as it----
    Mr. Rogers. So TSA wouldn't have personnel on the ground 
supervising?
    Mr. Poole. It wouldn't have the same extent of direct 
supervision of the contractor. It would be supervising it as 
part of its overall surveillance of the airport. So the----
    Mr. Rogers. Other than Canada, is there any other country 
you can think of that does that?
    Mr. Poole. Well almost all of the major European airports, 
I mean the policy in Europe vary somewhat from country to 
country but there is no--I was not able to find any European 
country, any E.U. member that has a combination of regulation 
and screening provision in the same national government entity.
    Mr. Rogers. Great.
    Mr. Poole. Either the airport that does it or private 
contractors reporting to the airport.
    Mr. Rogers. Great.
    Mr. Nelson and Mr. Blank, both of you brought up in your 
opening statement a concept that frankly, I am embarrassed to 
say I hadn't thought of before, that is term limits for the 
administrator. I think that it is very appealing and then as 
you heard from the Ranking Member, she finds it very appealing 
as well.
    You all mentioned the FBI Director as an example. I would 
like to know if there is anybody else--is there another 
department where this works like the FBI that comes to the top 
of your head?
    Mr. Blank. I mentioned, I believe, in my statement that the 
FAA administrator is also a 5-year term.
    Mr. Rogers. Okay.
    Let me ask this, and this goes to Mr. Nelson, you made the 
point that the reason you answered no when I talked about the 
bloat of the bureaucracy was that Administrator Pistole thinks 
that is what we need and you support him.
    Now, I have great respect for Administrator Pistole. I 
think he is an extremely competent fella and doing the best he 
can under the circumstances.
    Let me ask it to you this way. We--Mr. Pistole does not 
have a definite term. He works at the pleasure of the President 
and under the supervision of the Secretary.
    If Administrator Pistole had a 10-year term limit, or 8 
years, or whatever, and Mr. Pistole then said we need 70 
percent of what we got right now and I can do just fine and I 
can take that other money and redirect it into some areas that 
are more helpful as far as threat-based information, would you 
then think that was whatever that administrator felt like would 
happen would be what you would still support?
    Mr. Nelson. Mr. Chairman, I think I understand that 
question. I would like to see an evolution towards a more risk-
based security model.
    Mr. Rogers. Well, I am talking about the personnel. So here 
is my concern: The administrator at present serves at the 
pleasure of the President. This President has a very close 
relationship with organized labor.
    They don't want to see Federal employees be reduced. So 
even if the administrator felt like we had 20 or 30 or 40 
percent too many employees, he can't let them go. Because when 
he starts letting them go, the President is gonna call him up 
and go no, we are not gonna go there. See my point?
    I like the idea that you all have made that if they had a 
term the politics would get out of it. It could be the other 
way around, you know. You could have a Republican President and 
there was something that the Republican President didn't like.
    I like the idea of somebody who is competent and capable 
having the latitude to make those kind of managerial decisions 
like we would in the private sector, without the risk of 
getting a phone call from the White House saying you have 
irritated a group of or a constituency of mine that I don't 
want irritated.
    See my point? That is one of the things I find appealing 
about that, plus trying to attract competent, quality people 
who aren't gonna be worried about getting a phone call any day 
that they are gone.
    So it is an interesting concept. One of my staff just told 
me that Congressman Wolf has a bill to do something like that 
so I am gonna see if we can't move something like that along 
that has got that great potential.
    Mr. Cravaack, do you have any more questions?
    Mr. Cravaack. Actually, Mr. Chairman, you have asked them, 
so thank you.
    Mr. Rogers. All right. Well, then I want to keep going. You 
are all mine.
    Mr. Blank, tell me what your thoughts are. Here, let me 
tell you one of my concerns about this is, as I was processing 
this concept, unlike the FBI, which the President appoints, 
this administrator has to work under the Secretary of Homeland 
Security.
    How would you deal with that term? Do you foresee any 
conflicts that would occur if the Secretary can't fire the 
administrator because of term limits?
    Mr. Blank. I think certainly that that could come up but I 
would start by saying that may be a good thing, if we have that 
kind of independence and that kind of security in somebody that 
is going to take on a responsibility to our National security 
on this particular level.
    I think that is one of the valuable things relative to an 
FBI director who can't be shoved aside by the sharp elbow, by 
an attorney general.
    Mr. Rogers. Okay.
    Mr. Nelson, again, I want to point to our board. Can you 
see those? If you will look at the red line, that is the 
personnel levels that we have in TSA.
    The blue graph or lines going up and down is the number of 
travelers that we have had. You will see the big dip and now we 
are starting to see a little tick back up.
    But the number of people, full-time employees that we have 
got working is dramatically higher than the level of transport 
of flight activity that we have.
    Do you have a problem with that? I mean, I hate to pick on 
you but you are the only one said no.
    Mr. Nelson. Yes. But, you know, Mr. Chairman, it is your 
prerogative. Please pick on me.
    No, it is a fair point. You know, in my Government career, 
we saw this cut with the pilots in 1993----
    Mr. Rogers. Right.
    Mr. Nelson [continuing]. And in the military in 1993 and 
1995 because we had a peace dividend and we cut all the 
personnel and then 5 or 6 years later we were trying to make up 
for the cuts that we made in 1993 and 1995.
    We did the same thing with intelligence officers prior to 
9/11. We cut a lot of the case officers because we didn't need 
them any more. Then all of the sudden we needed them and the 
size of the CIA had half the workforce who has come on board 
since 9/11.
    So I am always very cautious when we use personnel cuts 
alone as a solution to a budget problem or a solution to a 
security model problem.
    I am all for revamping how TSA operates if we make 
alternate changes such as investing more in science and 
technology, investing more in risk-based security, which 
requires us to invest more in information and intelligence 
sharing.
    You can't have a successful risk-based security model, a 
reduced number of personnel screeners----
    Mr. Rogers. Right.
    Mr. Nelson [continuing]. Physical screeners, without having 
improved intelligence information sharing.
    Mr. Rogers. See, and that goes to what Mr. Bloom was 
offering in his opening statement earlier that he wants to see 
less emphasis on technology and more on intelligence gathering, 
human-based assets, which I agree with. What I want to 
emphasize is with that number it is hard for us as policymakers 
to make the case for spending money on those assets because 
people think we are wasting what we are giving out.
    The fact is in our current environment, we are not getting 
any more money in the Department of Homeland Security. I think 
the Department of Homeland Security and the Department of 
Defense are, because of the dangerous world that we live, are 
not gonna be as affected by cuts as other departments may be 
because we have gotta be safe and secure.
    But the days of the numbers going up are over. Having said 
that, we gotta find a way to take the number we have got, which 
is roughly $35 billion and reshuffle it so that it is more 
effective.
    What I contend is that we can't justify that number, 
particularly when people are going to the airports with their 
terrible perspective or perceptions of TSA and expect them to 
go along with us spending more money on the kind of 
intelligence-gathering assets.
    Because it has gotta become more threat-based. We can't 
keep treating grandma like she is from a Middle Eastern country 
like Yemen. So that--I want to see that shift and that is why I 
keep emphasizing in these hearings we can't keep doing that if 
we want to be able to do what you suggest and that is move to a 
more threat-based infrastructure and process than we have now.
    The fact is the public is outraged with TSA. Trust me, as 
Chairman of this committee I hear it daily. It doesn't matter 
if I am in Walmart or Sunday school people hate the TSA.
    We have gotta do something about that because we need this 
system and we have gotta have a system and if not this one, 
something like it, to protect us because it is still a very 
dangerous world. I get the briefings, as do the other Members 
of this committee.
    But we gotta be smarter and leaner in the way we do things. 
And that--which brings me back to the threat-based approach.
    Mr. Bloom, you talked about a shift away from technology to 
more intelligence gathering, smart systems. Tell me more about 
what you mean by that. What would you like to see specifically?
    Mr. Bloom. Thank you.
    A couple of things, going back quickly to a comment made by 
Ranking Member Jackson Lee about the current size of TSA and 
whether it should be reduced or not, I believe no one has made 
a coherent rationale for how that size correlates with the risk 
and what those folks are supposed to be doing against whatever 
the risk might be.
    Until we have answers to those questions, staying with the 
resources we have right now, it is really an un-defendable 
position that really has to be worked. Also, because just about 
everyone here believes a risk approach is the way to go, well, 
that means you have to have an understanding of threat and 
vulnerability. If a threat is basically intelligence-based how 
are you going to figure out what the threat might be?
    It changes from moment-by-moment and that is why both TECH-
INT and human, technical intelligence means and human 
intelligence means, collecting the information, analyzing it, 
transmitting it in a secure and responsive fashion to all the 
people who are responsible for our layers of security, for 
aviation, for other transportation modalities, that whole 
system is really crucial.
    Once that is optimal or close to it, that is when we know 
exactly how much we can reduce, given the economic climate we 
are in and the rest of it.
    Mr. Rogers. Okay. Thank you very much.
    Mr. Cravaack has a question.
    Mr. Cravaack. I was just gonna ask you to yield for a 
second.
    In this very committee room, didn't Secretary Napolitano 
actually come out and say that we were going to a risk-based 
type of----
    Mr. Rogers. She has and Administrator Pistole have but--at 
a snail's pace----
    Mr. Cravaack. They took that off there but wouldn't that be 
the exact opposite about what is happening here in regards to 
personnel?
    Was she willing to not fund last line of defense measures 
using risk-based analysis? So I just wanted to bring that up.
    Mr. Rogers. Well, I mean, when we had Administrator Pistole 
here about a month ago, that was one of my questions is, you 
know, appreciate it is a great first step.
    You heard me talk about it in my opening statement. But we 
gotta go a lot faster and a lot broader. But that kind of 
program is what we gotta do, where we are taking known 
travelers who travel every week, we know more about them than 
they think we know, and we know they are not a threat, move 
them out of the line.
    There are the things we can do with other people that are 
intelligence-based that we can get them away from being treated 
like they are a fundamentalist terrorist, you know, Islamic 
fundamentalist.
    So no, that we are not getting the kind of movement that 
backs up that rhetoric. Let me ask you this. By the way, Mr. 
Blank, you made a great observation earlier about the 
supervisors being given more discretion. We have been after 
them to do that.
    That is another example of what we are frustrated about is 
this is not rocket science. They have had this pointed out. 
They say we are gonna do it, just like what Mr. Cravaack was 
just talking about.
    They say we are gonna do it, but it is just not happening. 
What can you think of would be a good way for this committee to 
put some action behind that rhetoric on that particular issue 
with supervisors?
    Mr. Blank. On the chart that you had up, first of all, if I 
can, I would just want to address the personnel levels.
    On the chart that you had up----
    Mr. Rogers. Put that back up, please.
    Mr. Blank. Every one of the red Xs is a result of a formula 
that TSA has devised. In other words, they take inputs and 
they--in the early going we had a lousy formula.
    We hired 65,000 people. We had to lay off nearly 20,000 
people. They revised the formula. When you see a number of 
full-time equivalents and I think what I am suggesting is you 
ought to ask what is the out--what are in the elements of that 
formula?
    It has things like time to screen people. You should ask: 
Where are the promised efficiencies from technology? We have 
been promised that for years and years. That was gonna drive 
down FTEs; doesn't seem to have materialized.
    You are absolutely right. Less flights should mean less 
screeners. The airports have a role in that in terms of 
physical infrastructure.
    So there are all these inputs that I think the TSA should 
have to come and justify to you because it is the result of not 
a personal--not a human judgment. It is the result of a formula 
that has them moving toward a particular staffing level.
    I think in terms of the supervisors, I believe that 
Administrator Pistole testified he didn't have the money to do 
the training. My own feeling is, is that money is not the 
problem at TSA.
    It should be a relatively simple matter, in my view, to 
reprogram existing funds toward doing the training for the 
supervisors in order to have them be utilized as we have 
suggested and discussed here.
    Mr. Rogers. Great.
    Let me ask this and I will throw this out to whoever wants 
to answer it. Everybody nodded affirmatively when I talked 
about PreCheck being a good initiative. It is going too slow.
    We know now that very frequent travelers are the people, 
are that are put into that. Who else should be included? Who 
would you go to, the next couple of categories of people and, 
Mr. Poole?
    Mr. Poole. You could start with everyone who holds a secret 
or higher clearance.
    Why on earth that these people are handling sensitive 
defense material----
    Mr. Rogers. That is a great----
    Mr. Poole [continuing]. Entrusted with that, why should 
they go through the third-degree at the airport?
    Mr. Rogers. That is a great idea.
    Who else? Ms. Alonso.
    Ms. Alonso. Again, I want to go back to my statement, 
previous, that flight attendants do go through the same 
background checks, back 10 years and security screenings as 
pilots.
    I am sure that everyone here has experienced a delay where 
we have had to cut ahead of passengers in line.
    Mr. Rogers. Oh, yes.
    Ms. Alonso. Not only is time----
    Mr. Rogers. Happened yesterday, I was standing in line at 
the Atlanta Airport----
    Ms. Alonso. We apologize.
    Mr. Rogers. Didn't bother me but I know the other people 
who are not regular travelers were probably upset about it.
    Ms. Alonso. It is not only about time, it is about security 
as well.
    When I have to put my items on the belt and I have to make 
sure that no one around them, you know, is doing anything to my 
bags, it is very difficult for me to maintain vigilance on all 
ends, at all times, based upon the security procedures that are 
set up in place.
    I mean, I can stand there for a certain amount of time and 
then they move me along to try to get the next one----
    Mr. Rogers. So you are not advocating not going through any 
screening, but going through the PreCheck----
    Ms. Alonso. Not at all.
    Mr. Rogers [continuing]. Just a magnetometer like the----
    Ms. Alonso. We are not advocating superseding security 
screening. We are just asking to use the alternative screening 
processes that are already set up in place that the pilots use 
at this time, Known Crewmember.
    Mr. Rogers. Okay. That was two great examples.
    Mr. Nelson.
    Mr. Nelson. I thank you, Mr. Chairman.
    I would just start by allowing the frequent flyers to have 
transferable interoperability so that if I am a frequent flyer 
on Delta and not on United and I fly on United I get the same 
screening.
    That is not happening right now. That is an easy fix that 
is being controlled by the airlines.
    Mr. Rogers. That is another great idea.
    Mr. Bloom--Dr. Bloom.
    Mr. Bloom. Well, I would just like to point out, in a very 
respectful way that although all these suggestions are good, 
they are nothing on the terrorist threat or make the country 
any safer.
    In a way the suggestions are dealing with the side effects 
of a very imperfect medication. What we should be looking at 
instead while we try to come up with a better medication, is 
dealing with the disease and that is where the intelligence 
activities come in.
    Mr. Rogers. I agree. What I am after is a smarter way of 
using our resources so that we are leaner, for public 
perception purposes, and smarter, which gets to your point.
    So the more of these people we can get out of the line, the 
easier it is for us to look thoroughly at who is left. Is this 
their first time ever to fly? Did they buy a one-way ticket?
    Did they pay cash? All the things that we want to look for, 
it is more manageable if we have a smaller group. So that is 
why I want to get--Supreme Court justices have no business 
going through--maybe after the ruling 2 weeks ago, but they 
have no business going through that.
    You have got Donald Rumsfeld getting patted down at the 
airport; Henry Kissinger, you know, that is just mind-numbing 
that that kind of stuff is happening.
    Yes, sir.
    Mr. Bloom. Well, just to briefly follow up, there was a 
National Academy of Sciences study done a few years ago, which 
recommended a partial random, partial--well, I will use the 
term profiling, even though it is politically loaded, 
combination of random and profiling with a partial sample of 
the total traveling public as the most cost-effective approach 
to support security.
    Mr. Rogers. There is a host of things we can do from the 
intelligence threat-based perspective on that.
    I would point out for the people in the audience who don't 
know, even if you are in the PreCheck category, which I am, I 
go through PreCheck when I fly on Delta, which goes back to 
your point, there is a reason we can be doing that with other 
airlines too.
    I don't get that on US Air. No offense, Ms. Alonso, which I 
fly pretty regularly, too.
    But there is no reason why that shouldn't be the case no 
matter which airline you are flying.
    But there is a lot of other things that we could do to get 
these people out of line and that is what I want to emphasize 
because I want us to be a much smarter, much more effective, 
much more threat-based organization that has the public's 
confidence because right now we don't.
    That is a real concern to me as a policymaker that the 
public does not have confidence in the TSA.
    So you all have been a very good panel, very thought-
provoking, great ideas and I appreciate your time, for 
preparing for your testimony and for your attendance here 
today.
    With that, this hearing is adjourned.
    [Whereupon, at 2:16 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
